    DRUG ENFORCEMENT 

      ADMINISTRATION

ANNUAL FINANCIAL STATEMENTS

     FISCAL YEAR 2011 

        U.S. Department of Justice 

      Office of the Inspector General 

               Audit Division 


           Audit Report 12-17 

             February 2012

 
         DRUG ENFORCEMENT ADMINISTRATION

           ANNUAL FINANCIAL STATEMENTS

                 FISCAL YEAR 2011


               OFFICE OF THE INSPECTOR GENERAL

                  COMMENTARY AND SUMMARY


      This audit report contains the Annual Financial Statements of the Drug
Enforcement Administration (DEA) for the fiscal years (FY) ended
September 30, 2011, and September 30, 2010. Under the direction of the
Office of the Inspector General (OIG), KPMG LLP performed DEA’s audit in
accordance with U.S. generally accepted government auditing standards.
The audit resulted in an unqualified opinion on the FY 2011 financial
statements. An unqualified opinion means that the financial statements
present fairly, in all material respects, the financial position and the results
of the entity’s operations in conformity with U.S. generally accepted
accounting principles. For FY 2010, the DEA also received an unqualified
opinion on its financial statements (OIG Report No. 11-16).

       KPMG LLP also issued reports on internal control over financial
reporting and on compliance and other matters. The auditors identified one
significant deficiency in internal control in the FY 2011 Independent Auditors’
Report on Internal Control over Financial Reporting. The significant
deficiency related to weaknesses identified in DEA’s reporting of non-valued
seized evidence. Additionally, no instances of non-compliance with
applicable laws and regulations, and the Federal Financial Management
Improvement Act of 1996 were identified during the audit in the FY 2011
Independent Auditors’ Report on Compliance and Other Matters.

       The OIG reviewed KPMG LLP’s reports and related documentation and
made necessary inquiries of its representatives. Our review, as
differentiated from an audit in accordance with U.S. generally accepted
government auditing standards, was not intended to enable us to express,
and we do not express, an opinion on DEA’s financial statements,
conclusions about the effectiveness of internal control, conclusions on
whether DEA’s financial management systems substantially complied with
the Federal Financial Management Improvement Act of 1996, or conclusions
on compliance with laws and regulations. KPMG LLP is responsible for the
attached auditors’ reports dated November 4, 2011, and the conclusions
expressed in the reports. However, our review disclosed no instances where
KPMG LLP did not comply, in all material respects, with U.S. generally
accepted government auditing standards.
This page intentionally left blank.

            DRUG ENFORCEMENT ADMINISTRATION

              ANNUAL FINANCIAL STATEMENTS

                    FISCAL YEAR 2011


                          TABLE OF CONTENTS


                                                                              PAGE


MESSAGE FROM THE CHIEF FINANCIAL OFFICER......................................1


MANAGEMENT'S DISCUSSION AND ANALYSIS ..........................................5


INDEPENDENT AUDITORS’ REPORTS


  REPORT ON FINANCIAL STATEMENTS ................................................ 37


  REPORT ON INTERNAL CONTROL OVER FINANCIAL REPORTING............ 39


  REPORT ON COMPLIANCE AND OTHER MATTERS ................................ 42


PRINCIPAL FINANCIAL STATEMENTS AND RELATED NOTES


  CONSOLIDATED BALANCE SHEETS.................................................... 46


  CONSOLIDATED STATEMENTS OF NET COST ...................................... 47


  CONSOLIDATED STATEMENTS OF CHANGES IN NET POSITION............. 48


  COMBINED STATEMENTS OF BUDGETARY RESOURCES ........................ 50


  COMBINED STATEMENTS OF CUSTODIAL ACTIVITY............................. 52


  NOTES TO THE FINANCIAL STATEMENTS ........................................... 53


REQUIRED SUPPLEMENTARY INFORMATION


  COMBINING STATEMENTS OF BUDGETARY RESOURCES ...................... 89

This page intentionally left blank.

MESSAGE FROM THE CHIEF FINANCIAL OFFICER


Fiscal year 2011 was another successful year for the Drug Enforcement Administration
in financial management. For the thirteenth consecutive year, we received an
unqualified ("clean") audit opinion on our consolidated financial statements.
Furthermore, our financial statement audit is completely free of any material
weaknesses. These audit results are evidence of the hard work and collaboration
among the 309 DEA offices world-wide and our commitment to sound financial
management practices, especially in these challenging financial times.

Although extraordinarily challenging, DEA successfully implemented the Unified
Financial Management System (UFMS) in January 2009. Fiscal year 2011 was our
second full year of operating and processing all financial and procurement transactions
in the new system. The successful implementation of UFMS is critical to the future
financial successes of our agency, but ultimately we will always rely on the cooperation
and participation of DEA employees at all levels to achieve our goals and maintain our
already high standards in financial management.

We continued to make improvements in the area of obligation management; to account
for our obligations in a timely and accurate manner. Our ability to properly manage
agency resources is key to the success of DEA's mission. I am pleased to say that as a
result of our hard work DEA's auditors did not identify any significant findings related to
the management of obligations.

Unfortunately, however, the auditors chose to include a finding related to the reporting of
non-valued evidence. Specifically, they determined that DEA pulled information from the
wrong data field in STRIDE. STRIDE is a DEA system that tracks the weight of drugs
we have on hand in our laboratories . This specific query is not used for any other
purpose than for disclosure in the financial statements. The information recorded in
STRIDE is and has always been accurately recorded.

This error had no material impact on DEA's financial statements. Drug evidence weight
is reported only as a footnote and is not financial in nature. DEA had the correct number
in STRIDE and, more importantly, there was no question regarding the safeguarding of
DEA's drug evidence. The adjustment made in the current year was simply a matter of
DEA pulling the wrong number out of a system that had the right number in it. This
mistake has been corrected and drug evidence balances were properly reflected at year
end. The auditors issued no recommendation with this finding. I want to emphasize that
this finding in no way suggests that DEA has taken a step backward in its outstanding
record of financial management, nor does it diminish DEA's impressive
accomplishments in the area of financial management. Nonetheless, the auditors
determined that auditing standards compelled them to issue a significant deficiency in
this area. We understand that this decision was a matter of professional judgment by the
auditors but we disagree with their assessment of the importance of this error.



                                          -1-
On behalf of the Administrator and entire Executive Staff, I would like to thank the many
talented and dedicated men and women in DEA who are responsible for this year's
exceptional record. DEA's Senior Leadership is keenly aware of the pivotal role financial
management plays in service to our Special Agents and other core personnel. In
particular, I would like to congratulate the financial management staff in Headquarters
and the field for their tireless efforts to maintain solid financial management practices, as
evidenced by the outstanding results of this year's testing . I am privileged to be a part of
this fine community of individuals and I consider this report a reflection of the
outstanding service these dedicated people provide to DEA, day in and day out.



F?~ J!atf__
Chief Financial Officer
October 28, 2011




                                            -2-
Management’s Discussion and Analysis


              Unaudited





              -3-
This page intentionally left blank.





                -4-
                               U.S. DEPARTMENT OF JUSTICE

                            DRUG ENFORCEMENT ADMINISTRATION

                          MANAGEMENT’S DISCUSSION AND ANALYSIS

                                        (unaudited)

MISSION AND ORGANIZATIONAL STRUCTURE

Mission

The mission of the Drug Enforcement Administration (DEA) is to enforce the controlled
substances laws and regulations of the United States (U.S.) and bring to the criminal and civil
justice system of the U.S., or any other competent jurisdiction, those organizations and principal
members of organizations involved in the growing, manufacturing, or distribution of controlled
substances appearing in or destined for illicit traffic in the U.S., including organizations that use
drug trafficking proceeds to finance terror; and to recommend and support enforcement-related
programs aimed at reducing the availability of and demand for illicit controlled substances on
the domestic and international markets.

Organizational Structure of the DEA

The DEA is a component of the Department of Justice (DOJ). It is headed by an Administrator,
who is appointed by the President and confirmed by the Senate. During fiscal year (FY) 2011,
the DEA operated a total of 226 Domestic Offices, which consisted of 21 Domestic Field
Divisions, through which 37 Domestic District Offices, 117 Resident Offices, and 51 Posts of
Duty reported. The DEA also operated 83 Foreign Offices, which consisted of 64 Foreign
Country Offices and 19 Resident Offices in 63 countries. Of the 83 Foreign Offices, nine offices
reported through Domestic Field Divisions (seven through the Caribbean Field Division and two
through the Miami Field Division).

The DEA’s authorized positions for FY 2011 are 11,082 positions, including 5,356 Special
Agents. The chart below provides a breakout of the DEA’s staffing by position category and
compares authorized positions to on-board strength at the end of FY 2011:

                                       FY 2011 Staffing Data 1
                                                                                On-Board Strength
         Position Category                Authorized Positions                 September 30, 20112
  Special Agent                                   5,356                              4,839
  Diversion Investigator                            576                                527
  Intelligence Specialist                           981                                820
  Chemist                                           353                                301
  Support3                                        3,816                              3,159
  TOTAL                                        11,0824                               9,646
  1
    Includes 1,309 Organized Crime Drug Enforcement Task Force (OCDETF) Program reimbursable positions,
  one U.S. European Command (USEUCOM), and one National Maritime Intelligence Center (NMIC)
  reimbursable positions.
  2
    Reflects on-board strength as of Pay Period 19, which ended September 24, 2011. Pay Period 19 is
  classified as the Final Pay Period for FY 2011 by the Office of Personnel Management (OPM) and DOJ.
  3
    Support includes all Professional/Administrative and Technical/Clerical Positions and Employees.
  4
    Excludes 50 positions (35 Special Agent, 8 Intelligence Specialist, and 7 Support) approved in the FY 2010
  Southwest Border Supplemental.




                                                      -5-
The chart below depicts the Headquarters Offices that report to the Deputy Administrator and/or
the Administrator:
                                                    Drug Enforcement Administration
                                                                            ADMINISTRATOR (A)
                                                                            Michele M. Leonhart
                                                                           DEPUTY ADMINISTRATOR
                                                                                    (AD)
                                                                                   Vacant

                                                             EXECUTIVE EQUAL
                                                                                             EXECUTIVE POLICY
                                                             OPPORTUNITY AND
                                                                                                & STRATEGIC                         OFFICE OF
                                                                EMPLOYEE
                                                                                              PLANNING STAFF                     ADMINISTRATIVE
                                                             ASSISTANCE STAFF
                                                                                                    (ADS)                        LAW JUDGES (LJ)
                                                                   (ADEE)
                                                                                               Kevin C.Whaley
                                                               Oliver C. Allen                                                       John J.
                                                                                                                                   Mulrooney, II
                                                                                                 OFFICE OF
                                                                                                                                     (Acting)
                                                              OFFICE OF CHIEF                CONGRESSIONAL &
                                                               COUNSEL (CC)                     PUBLIC AFFAIRS
                                                              Wendy H. Goggin                        (CP)
                                                                                              Mary Irene Cooper




                            OPERATIONS                                                                         FINANCIAL                 OPERATIONAL
HUMAN RESOURCES                                                                                              MANAGEMENT                                       INSPECTION
                           DIVISION (OC)       INTELLIGENCE                                                                            SUPPORT DIVISION
   DIVISION (HR)                                                                                                                                              DIVISION (IG)
                             CHIEF OF                                                                         DIVISION (FC)                   (SC)
    ASSISTANT                                   DIVISION (NC)                                                                                               CHIEF INSPECTOR
  ADMINISTRATOR             OPERATIONS                                                                      CHIEF FINANCIAL                ASSISTANT
                                              Rodney G. Benson                                                  OFFICER                                     James M. Kasson
Raymond A. Pagliarini,   Thomas M. Harrigan                                                                                             ADMINISTRATOR
         Jr.                                                                                                 Frank M. Kalder            Preston L. Grubbs
                                              OFFICE OF NATIONAL
                         AVIATION DIVISION         SECURITY                                                   OFFICE OF                                        OFFICE OF
 CAREER BOARD                   (OA)           INTELLIGENCE (NN)                                             ACQUISITION                  OFFICE OF         INSPECTIONS (IN)
     (HRC)                  John Welch            W. Bond Wells                                            MANAGEMENT (FA)             ADMINISTRATION         Kevin M. Foley
  Bruce Travers               (Acting)               (Acting)                                               Christinia K. Sisk               (SA)
                                                                                                                                       Mary E. Colarusso
                            OFFICE OF         OFFICE OF SPECIAL
                           OPERATIONS         INTELLIGENCE (NS)                                                                                               OFFICE OF
   BOARD OF              MANAGEMENT (OM)                                                                                                  OFFICE OF
                                                 Arthur A. Doty                                              OFFICE OF                                      PROFESSIONAL
 PROFESSIONAL             David G. Dongilli                                                                                             INFORMATION
                                                                                                            FINANCE (FN)                                    RESPONSIBILITY
 CONDUCT (HRB)                                                                                                                           SYSTEMS (SI)            (OPR)
 Patrick T. Dunn                                                                                           Daniel C. Gillette          Dennis R. McCrary
                             SPECIAL                                                                                                                         Karl C. Colder
                                                    EL PASO
                           OPERATIONS
                                                 INTELLIGENCE
                           DIVISION (OS)
                                                  CENTER (NE)                                                OFFICE OF                     OFFICE OF
    OFFICE OF              Derek S. Maltz
                                                   Matthew R.
 TRAINING (TR)                                                                                               RESOURCE                      FORENSIC
                                                   Addington                                                                                                   OFFICE OF
                            OFFICE OF                                                                       MANAGEMENT                   SCIENCES (SF)
Jeffrey D. Sweetin                                                                                                                                             SECURITY
                            DIVERSION                                                                            (FR)                   Nelson A. Santos
                           CONTROL (OD)                                                                                                                      PROGRAMS (IS)
                                                    OCDETF                                                  Brian G. Horn
                             Joseph T.                                                                                                                        Barbra Roach
                            Rannazzisi          FUSION CENTER
                                                     (NF)
                                               Stephen E. Murphy                                                                         OFFICE OF
                         OFFICE OF GLOBAL                                                                                              INVESTIGATIVE
                           ENFORCEMENT                                                                                                  TECHNOLOGY
                                (OE)                                                                                                        (ST)
                               Vacant                                                                                                  Gary J. Tennant

                            OFFICE OF
                            FINANCIAL
                         OPERATIONS (FO)
                          John J. Arvanitis

                                                                        FIELD DIVISIONS & OFFICES                                                           9/2011




                                                                          -6-
FINANCIAL STRUCTURE

In FY 2011, the DEA had available funding in seven different annual, multi-year, and no-year
appropriations. Generally, the DEA’s annual appropriation provides for most, but not all, salaries
and expenses and core program activities, while multi-year and no-year funding provides for a
variety of specialized programs, activities, and functions.

PERFORMANCE INFORMATION

Resources

Under the DOJ Strategic Plan, the DEA’s resources are devoted to the achievement of DOJ
Strategic Goals 1, Prevent Terrorism and Promote the Nation’s Security, and 2, Prevent Crime,
Enforce Federal Laws, and Represent the Rights and Interests of the American People.


                              Table 1. Source of DEA Resources
                                    (Dollars in Thousands)

                     Source                           FY 2011          FY 2010        Change %
Earned Revenue:                                       $ 722,910        $ 678,302        6.6%
Budgetary Financing Sources:
Appropriations Received                                 2,019,682        2,053,353      (1.6)%
Appropriations Transferred In/Out                          71,029           39,756      78.7%
Other Financing Sources:
Transfers In/Out Without Reimbursement                     14,358            9,518      50.9%
Imputed Financing From Costs Absorbed by                   89,229           75,709      17.9%
Others
  Total                                               $ 2,917,208      $ 2,856,638       2.1%


                           Table 2. How DEA Resources are Spent
                                    (Dollars in Thousands)

              Strategic Goal (SG)                      FY 2011         FY 2010        Change %
SG 1. Prevent Terrorism and Promote the
Nation’s Security
                                Total Gross Cost       $ 106,082       $ 100,315         5.8%
                    Less: Total Earned Revenue               693             632         9.7%
                    Total Net Cost of Operations       $ 105,389        $ 99,683         5.7%
SG 2. Prevent Crime, Enforce Federal Laws,
and Represent the Rights and Interests of the
American People
                                Total Gross Cost     $ 2,929,005      $ 2,801,202        4.6%
                    Less: Total Earned Revenue           722,217          677,670        6.6%
                    Total Net Cost of Operations     $ 2,206,788      $ 2,123,532        4.0%




                                              -7-
FY 2011 Financial Highlights

Strategic Goal 1, Prevent Terrorism and Promote the Nation’s Security, includes the DEA’s
membership in the Intelligence Community (IC), a special investigations unit, support of
counterterrorism intelligence inquiries, Afghanistan Foreign-deployed Advisory and Support
Teams (FAST), and the DEA’s enforcement operations in the Middle East, Central Asia, and
Southwest Asia, such as Operation Containment. FY 2011 is the fifth year that the DEA is
scoring resources as Strategic Goal 1. In FY 2011, Goal 1 net costs increased by 5.7 percent.
Each year, DEA receives a transfer from the Department of State to support operations in
Afghanistan. A significant amount of the funding that DEA received in FY 2010 was obligated
late in the year. Because there was no significant decrease in funding from the Department of
State in FY 2011, the expensing of the FY 2010 obligations in FY 2011 caused an increase in
Goal 1 net costs.

Strategic Goal 2, Prevent Crime, Enforce Federal Laws, and Represent the Rights and
Interests of the American People, includes the majority of the DEA’s enforcement and
regulatory activities. In FY 2011, Strategic Goal 2 net costs increased by 3.9 percent.

Data Reliability and Validity

The DEA views data reliability and validity as critically important in the planning and assessment
of our performance. As such, this document includes a discussion of data validation, verification,
and any data limitations for each performance measure presented. Each Reporting Component
ensures that data reported meets the following criteria:

       At a minimum, performance data are considered reliable if transactions and other data that support reported
       performance measures are properly recorded, processed, and summarized to permit the preparation of
       performance information in accordance with criteria stated by management. Performance data need not be
       perfect to be reliable, particularly if the cost and effort to secure the best performance data possible will
       exceed the value of any data so obtained.

In addition, the DEA was requested to ensure that data reported met the Office of Management
and Budget (OMB) standards for data reliability as presented in OMB Circular No. A-11,
Preparation, Submission and Execution of the Budget, Section 230.2 (f), Relationships Between
the Annual Program Performance Report, the Annual Performance Plan, and the Accountability
Report. Based on a review of the OMB standard, the DEA has determined that its performance
data is reliable.

FY 2011 REPORT ON SELECTED RESULTS

STRATEGIC GOAL 1: Prevent Terrorism and Promote the Nation’s Security – 4.6 percent of
the DEA’s Net Costs support this Goal.

PROGRAM:

Background/Program Objectives:

Intelligence and National Security

In recognition of the national security threat that illegal drugs pose to the U.S., the contributions
that the DEA makes in the area of national security, and the continued mandate for increased
intelligence sharing between law enforcement and intelligence agencies, DEA’s Office of
National Security Intelligence (ONSI) was designated a member of the Intelligence Community


                                                     -8-
(IC) in February 2006. Since February 2006, the DEA has enhanced its ability to exploit its

confidential sources for national and homeland security issues and the dissemination of

information to the IC and other law enforcement agencies.


The ONSI is a component of the DEA’s Intelligence Division (NC) within the DEA Headquarters.

The ONSI conducts exclusively the operational responsibilities of the NC in order to ensure 

separation of the DEA’s intelligence and law enforcement functions. The objective of the ONSI is

to maximize the DEA’s contribution to national security, while protecting the primacy of its law

enforcement mission. Through the efforts of the ONSI, the DEA fulfills the requirement to share

intelligence mandated by the USA Patriot Act and the Attorney General’s guidelines to share

information. ONSI facilitates full and appropriate intelligence coordination and information

sharing with the other members of the IC and homeland security elements to enhance U.S.

efforts to reduce the supply of drugs, protect national security, and combat global terrorism.


The DEA collection management system, managed through the ONSI, plays a critical role in the 

facilitation of information sharing with the IC. The system includes Intelligence Analysts based at

the DEA’s headquarters and in the field who serve as the interface between the IC and the 

DEA’s primary law enforcement mission. The collection management system provides the tool

for satisfying internal DEA requirements as well as intelligence requirements from the law

enforcement community, IC, and other information-sharing partners. The ONSI, through its

Collection Requirements Unit, has developed and implemented methodologies for responding to

IC requirements with information derived from law enforcement operations and investigations.

These processes are designed to identify, gather, collate and disseminate information in

response to identified requirements in a structured manner that will maximize the value of the

information to the end user.


Another key component of the ONSI is the DEA’s Reports Officer Program, which is responsible 

for reviewing DEA investigative and intelligence reporting for the purpose of extracting and

disseminating to other U.S. intelligence and federal law enforcement agencies information that

could assist in protecting homeland security. These Intelligence Information Reports (IIRs)

enhance information sharing. DEA’s Reports Officer Program provides thousands of IIRs to the

IC. These reports, while based on information derived from drug investigations, provide 

information on a variety of national security issues, including terrorism, weapons of mass

destruction (WMD), biological weapons, political corruption, and foreign policy interests.


Performance Measure: Percentage of IC Requests for Information (RFIs) Provided by the 

Requested Deadline


FY 2002 Actual Performance           N/A, Measure first reported in FY 2009.

FY 2003 Actual Performance           N/A, Measure first reported in FY 2009.

FY 2004 Actual Performance           N/A, Measure first reported in FY 2009.

FY 2005 Actual Performance           N/A, Measure first reported in FY 2009.

FY 2006 Actual Performance           N/A, Measure first reported in FY 2009.

FY 2007 Actual Performance           N/A, Measure first reported in FY 2009.

FY 2008 Actual Performance           N/A, Measure first reported in FY 2009.

FY 2009 Actual Performance            90%

FY 2010 Actual Performance            85%

FY 2011 Target                       100%

FY 2011 Actual Performance            75%





                                              -9-
    Data Collection and Storage: As a result of receiving RFIs from a variety of sources, including the DEA,
    IC, and Law Enforcement (LE) partners, the ONSI researches information and develops products. These
    products are internally tracked through an MS Access database. The ONSI also uses a SIPERNET-based
    shared system (FORUM) for customer and field units to track the status of the RFIs. The ONSI does not
    maintain any databases of IC or LE partners’ information. The answers to all RFIs are retained in a secure
    hard copy file section at the ONSI.
    Data Validation and Verification: Each RFI is validated through the ONSI Collection Requirements
    Management System (CRMS) Unit.
    Data Limitations: None known at this time.

Discussion of FY 2011 Results:

As of September 30, 2011, DEA provided 75 percent of IC RFIs by the requested deadline.
Each year, DEA’s target is to meet 100 percent of the requested deadlines; however, with the
newness of this program, there are anticipated fluctuations as the program grows. The decline
between on time performance between FY 2010 and FY 2011 reflects increased workload as
ONSI accepts more IC requests with short deadlines.

Background/Program Objectives:

Enforcement Operations in the Middle East, Central Asia, and Southwest Asia

The DEA expanded its overseas presence to continue investigative efforts against organizations
in the Middle East, Central Asia, and Southwest Asia region and pursue links to foreign terrorist
organizations. The DEA implements administrative, diplomatic, and investigative measures to
reduce the flow of drugs into world markets and dismantle drug-related terrorist activities. The
DEA is currently engaging in proactive enforcement and intelligence gathering operations
targeting the command and control structure of heroin trafficking organizations in the Afghanistan
and Southwest Asia region.

Performance Measure: Disrupt or Dismantle Priority Target Organizations (PTOs) Linked to
Consolidated Priority Organization Targets (CPOT) and Not Linked to CPOTs in the Middle East,
Central Asia and Southwest Asia Regions

FY 2002 Actual Performance                          N/A, Measure first reported in FY 2007.
FY 2003 Actual Performance                          N/A, Measure first reported in FY 2007.
FY 2004 Actual Performance                          N/A, Measure first reported in FY 2007.
FY 2005 Actual Performance                          N/A, Measure first reported in FY 2007.
FY 2006 Actual Performance                          N/A, Measure first reported in FY 2007.
FY 2007 Actual Performance                          4 PTOs Disrupted or Dismantled
                                                    (1 Linked to CPOT/ 3 Not Linked to CPOT)
FY 2008 Actual Performance                          8 PTOs Disrupted or Dismantled
                                                    (2 Linked to CPOT/ 6 Not Linked to CPOT)
FY 2009 Actual Performance                          12 PTOs Disrupted or Dismantled
                                                    (6 Linked to CPOT/ 6 Not Linked to CPOT)
FY 2010 Actual Performance                         10 PTOs Disrupted or Dismantled
                                                    (1 Linked to CPOT/ 9 Not Linked to CPOT)
FY 2011 Target                                      N/A, DEA does not target its performance in these
                                                    regions
FY 2011 Actual Performance                          23 PTOs Disrupted or Dismantled
                                                   (0 Linked to CPOT/ 23 Not Linked to CPOT)




                                                    - 10 -
                                                                Priority Target Organizations (PTOs)

                                                            International & Domestic Enforcement - Goal 1

                                                                      Disrupted and Dismantled1


                                                             OCDETF                                 Non-OCDETF                              Total

    Fiscal Year          PTO Linkages            PT Os         PT Os                     PT Os          PT Os                   PT Os         PT Os
                                                                           T otal                                 T otal                                T otal
                                                Disrupted    Dismantled                 Disrupted    Dismantled                Disrupted   Dismantled



    FY 2007 Actual   PT Os Linked to CPOT               0           0               0           0            1             1           0            1            1
                     PT Os Not Linked to CPOT           0           0               0           1            2             3           1            2            3
                     T otal, FY 2007 Actual             0           0               0           1            3             4           1            3            4

    FY 2008 Actual   PT Os Linked to CPOT               0           0               0           0            2             2           0            2            2
                     PT Os Not Linked to CPOT           0           0               0           2            4             6           2            4            6
                     T otal, FY 2008 Actual             0           0               0           2            6             8           2            6            8

    FY 2009 Actual   PT Os Linked to CPOT               0           0               0           5            1             6           5            1            6
                     PT Os Not Linked to CPOT           0           0               0           4            2             6           4            2            6
                     T otal, FY 2009 Actual             0           0               0           9            3         12              9            3        12

    FY 2010 Actual   PT Os Linked to CPOT               0           0               0           1            0             1           1            0            1
                     PT Os Not Linked to CPOT           0           0               0           6            3             9           6            3            9
                     T otal, FY 2010 Actual             0           0               0           7            3         10              7            3        10

    FY 2011 Actual   PT Os Linked to CPOT               0           0               0           0            0             0           0            0            0
                     PT Os Not Linked to CPOT           0           0               0         20             3         23            20             3        23
                     T otal, FY 2011 Actual             0           0               0         20             3         23            20             3        23
1
  Includes disruptions, closed (PTARRS status code E) and disruptions pending dismantlements (PTARRS status code D) Prior to FY 2003, DEA did not include
disruptions pending dismantlements in its reported numbers of PTO disruptions




        Data Definition: Disruption means impeding the normal and effective operation of the targeted
        organization, as indicated by changes in organizational leadership and/or changes in methods of
        operation, including, for example, financing, trafficking patterns, communications or drug
        production. Disruption Pending Dismantlement means impeding the normal and effective
        operation of the targeted organization, but continuing towards the organization’s complete
        evisceration such that it is incapable of operating and/or reconstituting itself. Dismantlement
        means destroying the organization’s leadership, financial base and supply network such that the
        organization is incapable of operating and/or reconstituting itself. The first CPOT List was issued
        in September 2002, and is updated semi-annually. The List identifies the most significant
        international drug trafficking and money laundering organizations and those primarily responsible
        for the Nation’s drug supply. Enforcement agencies are focused on identifying links among
        disparate domestic drug trafficking and money laundering organizations and on making
        connections to their ultimate sources of supply. Investigators continually work up and across the
        supply chain, with the goal of disrupting and dismantling the entire network controlled by or
        supporting a given CPOT organization. An organization is considered "linked" to a CPOT, if
        credible evidence exists (i.e., from corroborated confidential source information, phone tolls, Title
        III intercepts, financial records, or other similar investigative means) of a nexus between the
        primary target of the investigation and a CPOT target. The nexus need not be a direct
        connection to the CPOT, so long as a valid connection exists to a verified associate or
        component of the CPOT organization.
        Data Collection and Storage: Each Country Office Attaché or Special Agent in Charge (SAC)
        nominates PTOs in the Priority Target Activity Resource Reporting System (PTARRS) based on
        intelligence information. Headquarters staff ensures that PTOs are tracked and nominations are
        supported by data and information.
        Data Validation and Verification: PTARRS provides its users with a means of electronically
        proposing, nominating, reviewing, editing, and tracking PTO investigations, including the PTO’s
        eventual disruption and dismantlement. The roles in the electronic approval chain are as follows:
        • Special Agent (SA) - The SA, Task Force Officer, or Diversion Investigator collects data on lead
        cases that will be proposed as PTOs. They can create, edit, update, and propose a PTO record.
        • Group Supervisor (GS) – The GS/Country Attaché (CA) coordinates and plans the allocation of
        resources for a proposed PTO. The GS/CA can create, edit, update, propose, resubmit, and
        approve a PTO record.


                                                                            - 11 -
    • Assistant Special Agent in Charge (ASAC) - The ASAC/Assistant Regional Director
    (ARD) reviews the PTO proposed and approved by the GS/CA, ensuring that all the necessary
    information meets the criteria for a PTO. The ASAC/ARD can also edit, update, resubmit, or
    approve a proposed PTO.
    • Special Agent in Charge (SAC) - The SAC/Regional Director (RD) reviews the proposed PTO
    from the ASAC/ARD and is the approving authority for the PTO. The SAC/RD can also edit,
    update, resubmit, or approve a proposed PTO.

    Headquarters Responsibilities
    • Operations Division (OC) – The Section Chief of the Data & Operational Accountability Section
    (OMD), or his designee, is the PTO Program Manager, and is responsible for the review of all
    newly approved PTO submissions and their assignment to the applicable OE or FO section. The
    PTO Program Manager may request that incomplete submissions be returned to the field for
    correction and resubmission. OMD is also responsible for tracking and reporting information in
    the PTO Program through PTARRS; and is the main point-of-contact for the PTO program and
    PTARRS related questions.
    • OMD will assign PTO’s based on the nexus of the investigation to organizations located in
    specific geographic areas of the world, or to specific program areas. After assignment of a PTO,
    the appointed HQ section becomes the point-of-contact for that PTO and division/region
    personnel should advise appropriate HQ section personnel of all significant activities or requests
    for funding during the course of the investigation. The Staff Coordinator (SC) assigned to the
    PTO will initiate a validation process to include a review for completeness and confirmation of all
    related linkages (e.g., CPOTs.) In the unlikely event that the documentation submitted is
    insufficient to validate reported linkages the SC will coordinate with the submitting office to obtain
    the required information.
    • All PTO cases that are reported as disrupted or dismantled must be validated by OMD or the
    OCDETF Section (OMO). OMD will validate all non-OCDETF related PTO cases and OMO will
    validate all OCDETF related cases. These disruptions and dismantlements are reported to the
    Executive Office of OCDETF via memo by OMO.
    Data Limitations: All statistics are limited by a lack of a relational link between case files and
    enforcement outputs (e.g., arrest, seizure, and work hour data). The link is inferred through data
    manipulation, but some areas are prone to error until all data systems are linked in a relational
    manner, and errors are prevented through data validation and referential integrity.


Discussion of FY 2011 Enforcement Operations in the Middle East, Central Asia, and
Southwest Asia Accomplishments:

As of September 30, 2011, the DEA disrupted or dismantled 23 PTO investigations not linked to
CPOT in the Middle East, Central Asia and Southwest Asia Regions.

The DEA is working to establish a permanent presence and develop strong relationships with its
host nation law enforcement counterparts in countries located in this region. As there has been
a link established between terrorists and drug trafficking organizations, the DEA is engaging in
proactive drug enforcement and intelligence gathering operations with its host nation
counterparts by targeting the command and control structure of heroin trafficking organizations
operating in the Middle East, Central Asia, and Southwest Asia region. Through Operation
Containment, (an intensive, multi-national program that attempts to place a security belt around
Afghanistan to prevent processing chemicals from entering and opium and heroin from leaving
the country), the DEA continued to work with countries from Central Asia, the Caucasus, Europe,
and Russia to reduce the heroin flowing out of Afghanistan.

DEA does not target its performance in these regions. Therefore, DEA has not established
targets for FY 2011 for disrupting and dismantling foreign PTOs linked and not linked to CPOT in
the Middle East, Central Asia and Southwest Asia. This area of the world poses significant


                                                  - 12 -
operational risks and challenges to DEA personnel, which makes it difficult to conduct
enforcement operations on a consistent basis. DEA cannot unilaterally investigate and arrest
high-level drug traffickers in the foreign arena, so DEA's success is contingent upon host nation
law enforcement cooperation to include intelligence sharing and participation. Also, specific
countries located in these regions currently lack self-sustaining counternarcotics police
institutions and effective criminal justice systems to adequately address counter drug efforts. All
of the abovementioned factors make it extremely challenging to project anticipated performance.

STRATEGIC GOAL 2: Prevent Crime, Enforce Federal Laws, and Represent the Rights
and Interests of the American People – 95.4 percent of the DEA’s Net Costs support this Goal.

PROGRAM:

Background/Program Objectives:

International and Domestic Enforcement

The DEA is committed to bringing organizations involved in the growing, manufacturing, or
distribution of controlled substances to the criminal and civil justice system of the U.S., or any
other competent jurisdiction. To accomplish its mission, the DEA targets PTOs, which represent
the major drug supply and money laundering organizations operating at the international,
national, regional, and local levels that have a significant impact upon drug availability in the
United States. Specifically, the Priority Targeting Program focuses on dismantling entire drug
trafficking networks by targeting their leaders for arrest and prosecution, confiscating the profits
that fund continuing drug operations, and eliminating international sources of supply. As entire
drug trafficking networks from sources of supply to the distributors on the street are disrupted or
dismantled, the availability of drugs within the United States will be reduced.

PTOs identified by the DEA’s domestic field divisions and foreign country offices are tracked
using the PTARRS, an Oracle database used to track operational progress and the resources
used in the related investigations, (i.e., investigative work hours and direct case-related
expenses). Through PTARRS, DEA assesses and links PTOs to drug trafficking networks,
which address the entire continuum of the drug conspiracy.

In its effort to target PTOs, the DEA is guided by key drug enforcement programs such as the
Organized Crime Drug Enforcement Task Forces (OCDETF) program. Specifically, the DEA
participated in approximately 85 percent and had the lead or co-lead in approximately 77 percent
of all OCDETF investigations in FY 2011. The DEA, through the OCDETF program, targeted the
drug trafficking organizations on the DOJ’s FY 2011 CPOT list – the “Most Wanted” drug
trafficking and money laundering organizations believed to be primarily responsible for the
Nation’s illicit drug supply.

The disruption or dismantlement of CPOT-linked organizations is primarily accomplished through
multi-agency and multi-regional investigations directed by the DEA and the Federal Bureau of
Investigation (FBI). These investigations focus on the development of intelligence-driven efforts
to identify and target drug trafficking organizations that play a significant role in the production,
transportation, distribution, and financial support of large scale drug trafficking operations. The
DEA’s ultimate objective is to dismantle these organizations so that reestablishment of the same
criminal organization is impossible.

The DEA’s current long-term objective is to maximize the Monetary Value of Currency, Property
and Drugs Seized (Drug Trafficker Revenue Denied). Drug Trafficker Revenue Denied reflects


                                              - 13 -
the outcome of activities scored to DEA’s International, Domestic and State and Local Decision
Units. In FY 2005, DEA established a five-year plan with annual milestones through FY 2009 to
meet the challenge of crippling drug cartels so that they are unable to reconstitute their
operations with new leadership. DEA planned to continue increasing its asset and drug seizures
until it achieved an annual goal of $3.0 billion in revenue denied to drug trafficking organizations
through new domestic and international seizure strategies, which was reached and exceeded in
FY 2009. Due to the difficult situation created by the current budget environment, DEA’s overall
funding was reduced and the number of on-board Special Agents decreased in FY 2011. As a
result, DEA did not meet its ambitious target of $3.0 billion for Drug Trafficker Revenue Denied
with $2.7 billion reported as of September 30, 2011, representing a shortfall of 10 percent.

Performance Measure: Disrupt or Dismantle International and Domestic PTOs Linked to CPOT
Targets and Not Linked to CPOT Targets

FY 2002 Actual Performance                                 222 PTOs Disrupted or Dismantled

                                                           (30 Linked to CPOT / 192 Not Linked to CPOT)

FY 2003 Actual Performance                                 416 PTOs Disrupted or Dismantled

                                                           (52 Linked to CPOT / 364 Not Linked to CPOT)

FY 2004 Actual Performance                                 674 PTOs Disrupted or Dismantled

                                                           (159 Linked to CPOT / 515 Not Linked to CPOT)

FY 2005 Actual Performance                                 1,103 PTOs Disrupted or Dismantled

                                                           (282 Linked to CPOT / 821 Not Linked to CPOT)

FY 2006 Actual Performance                                 1,244 PTOs Disrupted or Dismantled.

                                                           (231 Linked to CPOT/ 1,013 Not Linked to CPOT)

FY 2007 Actual Performance                                 1,431 PTOs Disrupted or Dismantled.

                                                           (194 Linked to CPOT/ 1,237 Not Linked to CPOT)

FY 2008 Actual Performance                                 2,087 PTOs Disrupted or Dismantled

                                                           (334 Linked to CPOT / 1,753 Not Linked to CPOT)

FY 2009 Actual Performance                                 2,126 PTOs Disrupted or Dismantled

                                                           (355 Linked to CPOT / 1,771 Not Linked to CPOT)

FY 2010 Revised Actual Performance                         2,411 PTOs Disrupted or Dismantled

                                                           (499 Linked to CPOT 1 / 1,912 Not Linked to CPOT)

FY 2011 Target                                             2,570 PTOs Disrupted or Dismantled

                                                           (460 Linked to CPOT / 2,110 Not Linked to CPOT)

FY 2011 Actual Performance                                 2,661 PTOs Disrupted or Dismantled

                                                           (529 Linked to CPOT 2 / 2,132 Not Linked to CPOT)





1
  FY 2010: 499 consists of 171 Dismantlements and 328 Disruptions of PTOs linked to CPOT. These numbers are included in the
table on page 14. These numbers represent DEA’s portion of the actual performance reported in DOJ’s Consolidated MD&A and
Performance and Accountability Report. Since there may be some overlap in the disruptions and dismantlements reported by FBI
and DEA, the numbers are deconflicted and consolidated to avoid double counting. Therefore it may not be possible to add DEA’s
and FBI’s totals to arrive at DOJ’s Consolidated Target/Actual.

2
  FY 2011: 529 consists of 168 Dismantlements and 361 Disruptions of PTOs linked to CPOT. These numbers are included in the
table on page 14. These numbers represent DEA’s portion of the actual performance reported in DOJ’s Consolidated MD&A and
Performance and Accountability Report. Since there may be some overlap in the disruptions and dismantlements reported by FBI
and DEA, the numbers are deconflicted and consolidated to avoid double counting. Therefore it may not be possible to add DEA’s
and FBI’s totals to arrive at DOJ’s Consolidated Target/Actual.




                                                           - 14 -
                                                       International & Domestic Enforcement - Goal 2

                                                                 Disrupted and Dismantled1


                                                              OCDETF                                Non-OCDETF                             Total


     Fiscal Year           PTO Linkages            PTOs       PTOs                        PTOs       PTOs                       PTOs       PTOs
                                                                            Total                                Total                               Total
                                                 Disrupted Dismantled                   Disrupted Dismantled                  Disrupted Dismantled



    FY 2002 Actual   PTOs Linked to CPOT2                5           9           14           12            4            16         17          13        30
                     PTOs Not Linked to CPOT            54          70          124           34           34            68         88         104       192
                     Total, FY 2002 Actual              59          79          138           46           38            84        105         117       222

    FY 2003 Actual   PTOs Linked to CPOT2               29           6           35           10            7         17            39          13        52
                     PTOs Not Linked to CPOT           171          85          256           67           41        108           238         126       364
                     Total, FY 2003 Actual             200          91          291           77           48        125           277         139       416

    FY 2004 Actual   PTOs Linked to CPOT               102          20          122           32            5         37           134          25       159
                     PTOs Not Linked to CPOT           204         125          329          121           65        186           325         190       515
                     Total, FY 2004 Actual             306         145          451          153           70        223           459         215       674
    FY 2005 Actual   PTOs Linked to CPOT               132          77          209           47           26         73           179         103       282
                     PTOs Not Linked to CPOT           321         240          561          168           92        260           489         332       821
                     Total, FY 2005 Actual             453         317          770          215          118        333           668         435     1,103

    FY 2006 Actual   PTOs Linked to CPOT               102          48          150           52           29         81           154          77       231
                     PTOs Not Linked to CPOT           406         243          649          214          150        364           620         393     1,013
                     Total, FY 2006 Actual             508         291          799          266          179        445           774         470     1,244

    FY 2007 Actual   PTOs Linked to CPOT                84          49          133           40           21         61           124          70       194
                     PTOs Not Linked to CPOT           485         279          764          325          148        473           810         427     1,237
                     Total, FY 2007 Actual             569         328          897          365          169        534           934         497     1,431

    FY 2008 Actual   PTOs Linked to CPOT               166          52          218           84           32        116            250         84       334
                     PTOs Not Linked to CPOT           737         315        1,052          475          226        701          1,212        541     1,753
                     Total, FY 2008 Actual             903         367        1,270          559          258        817          1,462        625     2,087

    FY 2009 Actual   PTOs Linked to CPOT               129          80          209          105           41        146            234        121       355
                     PTOs Not Linked to CPOT           602         363          965          525          281        806          1,127        644     1,771
                     Total, FY 2009 Actual             731         443        1,174          630          322        952          1,361        765     2,126

    FY 2010 Actual   PTOs Linked to CPOT               178         110          288          150           61        211            328        171       499
                     PTOs Not Linked to CPOT           550         386          936          625          351        976          1,175        737     1,912
                     Total, FY 2010 Actual             728         496        1,224          775          412      1,187          1,503        908     2,411
                                                          3            3            3           3           3             3
    FY 2011 Target   PTOs Linked to CPOT                                                                                            325        135       460
                                                          3            3            3           3           3             3
                     PTOs Not Linked to CPOT                                                                                      1,450        660     2,110
                                                          3            3            3           3           3             3
                     Total, FY 2011 Target                                                                                        1,775        795     2,570

    FY 2011 Actual   PTOs Linked to CPOT               179         102          281          182           66        248            361        168       529
                     PTOs Not Linked to CPOT           595         359          954          799          379      1,178          1,394        738     2,132
                     Total, FY 2011 Actual             774         461        1,235          981          445      1,426          1,755        906     2,661
1
  Includes disruptions, closed (PTARRS status code E) and disruptions pending dismantlements (PTARRS status code D) Prior to FY 2003, DEA did not include
disruptions pending dismantlements in its reported numbers of PTO disruptions
2
  Not all information concerning direct links between PTOs and CPOT targets is maintained in PTARRS The number of domestic PTOs linked to CPOT targets for
FY 2002 and FY 2003 were identified by an analysis conducted at headquarters In October 2003, PTARRS began to track PTOs with direct links to CPOT targets,
which are identified by the field and validated by headquarters
3
    For planning purposes and the establishment of targets, DEA does not differentiate between OCDETF and non-OCDETF




                                                                           - 15 -
Data Definition: Disruption means impeding the normal and effective operation of the targeted
organization, as indicated by changes in organizational leadership and/or changes in methods of
operation, including, for example, financing, trafficking patterns, communications or drug
production. Disruption Pending Dismantlement means impeding the normal and effective
operation of the targeted organization, but continuing towards the organization’s complete
evisceration such that it is incapable of operating and/or reconstituting itself. Dismantlement
means destroying the organization’s leadership, financial base and supply network such that the
organization is incapable of operating and/or reconstituting itself. The first CPOT List was issued
in September 2002, and is updated semi-annually. The List identifies the most significant
international drug trafficking and money laundering organizations and those primarily responsible
for the Nation’s drug supply. Enforcement agencies are focused on identifying links among
disparate domestic drug trafficking and money laundering organizations and on making
connections to their ultimate sources of supply. Investigators continually work up and across the
supply chain, with the goal of disrupting and dismantling the entire network controlled by or
supporting a given CPOT organization. An organization is considered "linked" to a CPOT, if
credible evidence exists (i.e., from corroborated confidential source information, phone tolls, Title
III intercepts, financial records, or other similar investigative means) of a nexus between the
primary target of the investigation and a CPOT target. The nexus need not be a direct
connection to the CPOT, so long as a valid connection exists to a verified associate or
component of the CPOT organization.
Data Collection and Storage: Each Country Office Attaché or Special Agent in Charge (SAC)
nominates PTOs in PTARRS based on intelligence information. Headquarters staff ensures that
PTOs are tracked and nominations are supported by data and information.
Data Validation and Verification: PTARRS provides its users with a means of electronically
proposing, nominating, reviewing, editing, and tracking PTO investigations, including the PTO’s
eventual disruption and dismantlement. The roles in the electronic approval chain are as follows:
• Special Agent (SA) - The SA, Task Force Officer, or Diversion Investigator collects data on lead
cases that will be proposed as PTOs. They can create, edit, update, and propose a PTO record.
• Group Supervisor (GS) – The GS/Country Attaché (CA) coordinates and plans the allocation of
resources for a proposed PTO. The GS/CA can create, edit, update, propose, resubmit, and
approve a PTO record.
• Assistant Special Agent in Charge (ASAC) - The ASAC/Assistant Regional Director
(ARD) reviews the PTO proposed and approved by the GS/CA, ensuring that all the necessary
information meets the criteria for a PTO. The ASAC/ARD can also edit, update, resubmit, or
approve a proposed PTO.
• Special Agent in Charge (SAC) - The SAC/Regional Director (RD) reviews the proposed PTO
from the ASAC/ARD and is the approving authority for the PTO. The SAC/RD can also edit,
update, resubmit, or approve a proposed PTO.

Headquarters Responsibilities
• Operations Division (OC) – The Section Chief of the Data & Operational Accountability Section
(OMD), or his designee, is the PTO
Program Manager, and is responsible for the review of all newly approved PTO submissions and
their assignment to the applicable OE or FO section. The PTO Program Manager may request
that incomplete submissions be returned to the field for correction and resubmission. OMD is also
responsible for tracking and reporting information in the PTO Program through PTARRS; and is
the main point-of-contact for the PTO program and PTARRS related questions.
• OMD will assign PTO’s based on the nexus of the investigation to organizations located in
specific geographic areas of the world, or to specific program areas. After assignment of a PTO,
the appointed HQ section becomes the point-of-contact for that PTO and division/region
personnel should advise appropriate HQ section personnel of all significant activities or requests
for funding during the course of the investigation. The Staff Coordinator (SC) assigned to the
PTO will initiate a validation process to include a review for completeness and confirmation of all
related linkages (e.g., CPOTs.) In the unlikely event that the documentation submitted is
insufficient to validate reported linkages the SC will coordinate with the submitting office to obtain
the required information.




                                              - 16 -
• All PTO cases that are reported as disrupted or dismantled must be validated by OMD or OMO.
OMD will validate all non-OCDETF related PTO cases and OMO will validate all OCDETF related
cases. These disruptions and dismantlements are reported to the Executive Office of OCDETF
via memo by OMO.
Data Limitations: All statistics are limited by a lack of a relational link between case files and
enforcement outputs (e.g., arrest, seizure, and work hour data). The link is inferred through data
manipulation, but some areas are prone to error until all data systems are linked in a relational
manner, and errors are prevented through data validation and referential integrity.

Discussion of FY 2011 International and Domestic Enforcement
Accomplishments:

In FY 2011, DEA began reporting its Diversion Control Program (DCP) PTOs separately
under the Diversion Control Fee Account. Prior to this change, DCP PTOs were
reported under DEA’s International and Domestic Enforcement accomplishments. As a
result of this change in reporting, DEA adjusted its FY 2003 – FY 2010 historical PTO
disruptions and dismantlements for International and Domestic Enforcement.

As of September 30, 2011, the DEA disrupted or dismantled 2,661 PTOs, which is 3.5
percent above its FY 2011 target of 2,570. In the current budget environment, this
performance is a testament to DEA’s commitment to its Priority Targeting Program,
which targets the drug trafficking and/or money laundering organizations having a
significant impact on drug availability within the United States. This includes PTOs with
a direct connection to DOJ’s CPOTs, which include the most significant international
command and control organizations threatening the United States as identified by
OCDETF member agencies.

Two recent, significant accomplishments in FY 2011 are as follows:

•	 On February 1, 2011, DEA announced that nearly 800 law enforcement officers
   targeted members and associates of Los Angeles 38th Street gang, arresting dozens
   of defendants, many of whom are named in a federal racketeering indictment that
   alleges a host of violent crimes, large-scale drug trafficking and extortion of both drug
   dealers and legitimate businesses. A total of 37 defendants were arrested pursuant
   to federal indictments, and 20 more individuals were taken into custody on state
   weapons and narcotics charges. Fourteen of the defendants named in the federal
   cases were already in custody, leaving seven federal fugitives who are currently
   being sought by authorities. Authorities seized approximately seven kilograms of
   cocaine, one pound of methamphetamine, 23 firearms and approximately $250,000
   in cash. This investigation has resulted in a significant decrease in gang-related
   violence and taken more than $2 million worth of dangerous drugs off the streets.

•	 On July 21, 2011, DEA Administrator Michele M. Leonhart announced the results of
   Project Delirium, a 20-month series of investigations nationwide targeting the La
   Familia Michoacana cartel: 1,985 arrests, seizure of $62 million in U.S. currency, and
   approximately 2,773 pounds of methamphetamine, 2,722 kilograms of cocaine,
   1,005 pounds of heroin, 14,818 pounds of marijuana and $3.8 million in other assets.
   Over 70 of these arrests took place on July 20 h and 21st, and over 200 have been
   arrested since June 1st.




                                             - 17 -
Background/Program Objectives:

State and Local Assistance

The DEA supports State and local law enforcement with methamphetamine-related
assistance and training, which allows State and local agencies to better address the
methamphetamine threat in their communities and reduce the impact that
methamphetamine has on the quality of life for American citizens.

One of the most critical, specialized training programs offered by DEA to State and local
law enforcement officers is in the area of Clandestine Laboratory Training. Often, it is
the State and local police who first encounter the clandestine laboratories and must
ensure that they are investigated, dismantled, and disposed of appropriately.

The DEA offers five clandestine laboratory training courses: State and Local Clandestine
Laboratory Certification School (SALC), Clandestine Laboratory Site Safety School (SS),
Clandestine Laboratory Tactical Training School (TAC), National Guard Clandestine
Laboratory Safety Certification Course (NG), and a National Improvised Explosive
Familiarization (NIEF) Program for State and Local Bomb Technicians. The NIEF
program provides instruction to state and local participants on the similarities between
clan labs and improvised explosives. It is sponsored by the Federal Bureau of
Investigation with DEA Clan Lab Unit assistance.

Performance Measure: Total Number of State and Local Law Enforcement Officers
Trained in Clandestine Laboratory Enforcement

FY 2002 Actual Performance             1,275
FY 2003 Actual Performance             1,573
FY 2004 Actual Performance             1,029
FY 2005 Actual Performance             1,043
FY 2006 Actual Performance             1,077
FY 2007 Actual Performance               952
FY 2008 Actual Performance               968
FY 2009 Actual Performance               873
FY 2010 Actual Performance             1,306
FY 2011 Target                           650
FY 2011 Actual Performance             1,384

 Data Collection and Storage: The DEA Training Academy receives quarterly training data from the
 field on training provided by Division Training Coordinators (DTC). The field data is combined with the
 data generated by the DEA’s Training Academy for total training provided by the DEA. Data is tabulated
 quarterly based on the fiscal year.
 Data Validation and Verification: Data is reviewed upon receipt, but only technical or unusual
 deviations are checked.
 Data Limitations: None known at this time.

Discussion of FY 2011 State and Local Assistance Accomplishments:

As of September 30, 2011, DEA trained 1,384 State and local law enforcement officers
in Clandestine Laboratories in FY 2011. The DEA Office of Training exceeded its target
of training 650 State and local law enforcement officers in FY 2011 by 113 percent.




                                            - 18 -
Although DEA exceeded its FY 2011 target, it must be noted that the content of the
training offered has been significantly altered in FY 2011 due to funding shortages.
Instead of certification and site safety classes representing the bulk of the training
conducted, NIEF Awareness Training, which is less comprehensive, represents 80
percent of the total clandestine laboratory training conducted (1,107 State and local
officers). In prior fiscal years, the NIEF Awareness Training constituted only about 20
percent of the total training completed.

Background/Program Objectives:

Diversion Control

The DCP is responsible for carrying out a primary mission of the DEA: to enforce the
Controlled Substances Act (CSA) and its regulations pertaining to pharmaceutical
controlled substances and listed chemicals. The DCP actively monitors more than 1.3
million individuals and companies that are registered with the DEA to handle controlled
substances or listed chemicals through a system of scheduling, quotas, recordkeeping,
reporting, and security requirements.

The DCP implements an infrastructure of controls established through the CSA and
ancillary regulations. This system balances the protection of public health and safety by
preventing the diversion of controlled substances and listed chemicals while ensuring an
adequate and uninterrupted supply for legitimate needs. The DCP conducts and
facilitates domestic and international investigations; plans and allocates program
resources; promulgates regulations; and conducts liaison with industry as well as
federal, state, and local counterparts.

The Prescription Drug Abuse Problem

The diversion and abuse of pharmaceutical controlled substances has long been a
problem, but these problems have become more acute in recent years. There are many
factors contributing to the increased abuse of prescription drugs. Many mistakenly
believe that abusing prescription drugs is safer than using illicit street drugs.
Prescription drugs are easily obtainable from friends and family. Moreover, many people
are not aware of the potentially serious consequences of using prescription drugs non-
medically.

Over the last several years, national surveys have documented the fact that a significant
number of Americans are abusing controlled substance prescription drugs for
nonmedical purposes. According to the 2009 National Survey on Drug Use and Health
(published in September 2010), 7 million Americans were current non-medical users of
psychotherapeutic drugs. Of that number, 5.3 million Americans abused pain relievers.
The survey also indicated that the abuse of prescription drugs was second only to
marijuana and had the largest number of new initiates.

The Centers for Disease Control (CDC) reported that “the number of deaths involving
prescription opioid analgesics increased from roughly 2,900 in 1999 to 7,500 in 2004, an
increase of 158.6 percent in 5 years.” The CDC also reported that unintentional
poisoning deaths attributed to methadone increased from 786 in 1999 to 4,462 in 2005,
a 467.7 percent change, and that unintentional poisoning deaths attributed to




                                         - 19 -
psychotherapeutic drugs increased from 671 in 1999 to 1,300 in 2004, a 93.7 percent

change. According to the CDC, opioid analgesics were involved in almost 40 percent of

all poisoning deaths in 2006.


DEA focuses the majority of its investigations on where the diversion occurs the most, at

the pharmacy and practitioner level of the distribution chain. These investigations may

include non-registrants or end users who are involved in large-scale diversion. Other

forms of diversion may include, thefts and robberies from pharmacies, illegal Internet

distribution organizations (individuals and organizations that operate over the Internet

and prescribe and dispense controlled substances without a valid prescription),

prescription fraud and doctor shopping.


On September 25, 2010, the DEA coordinated the National Take Back Day.

Approximately 4,094 collection sites and 2,992 state and local law enforcement agencies

participated in this first-ever nationwide program to remove potentially dangerous

controlled substances from our nation's medicine cabinets. Approximately 121 tons of

potentially dangerous drugs were collected during the one-day event. As stated by then

Acting Administrator Michele M. Leonhart, “This effort symbolizes DEA’s commitment to 

halting the disturbing rise in addiction caused by their misuse and abuse. Working

together with our state and local partners, the medical community, anti-drug coalitions,

and a concerned public, we will eliminate a major source of abused prescription drugs,

and reduce the hazard they pose to our families and communities in a safe, legal, and

environmentally sound way.”


On April 29, 2011, DEA coordinated the second National Take Back Day. During this

one-day event there were approximately 5,361 sites and 3,923 state and local law

enforcement agencies participating nationwide. Approximately 188 tons of potentially

dangerous drugs were collected for proper disposal. DEA is coordinating a third 

National Take Back Day which is scheduled for October 29, 2011.


All of the goals, strategies and initiatives supported by the DCP are intended to establish 

stronger standards of control, aid in preventing the diversion of pharmaceutical

controlled substances and chemicals, and enhance public safety by building greater

accountability and qualitative reporting requirements into its network of compliance 

indicators.


Performance Measure: Number of DCP Criminal Case Initiations


FY 2002 Actual Performance              N/A, Measure first reported in FY 2009.

FY 2003 Actual Performance              N/A, Measure first reported in FY 2009.

FY 2004 Actual Performance              N/A, Measure first reported in FY 2009.

FY 2005 Actual Performance              N/A, Measure first reported in FY 2009.

FY 2006 Actual Performance              N/A, Measure first reported in FY 2009.

FY 2007 Actual Performance              N/A, Measure first reported in FY 2009.

FY 2008 Actual Performance              N/A, Measure first reported in FY 2009.

FY 2009 Actual Performance              627

FY 2010 Actual Performance            1,011

FY 2011 Target                        2,036

FY 2011 Actual Performance            1,900





                                          - 20 -
Data Definition: DCP criminal case initiations obtained from the DEA’s Case Status Subsystem
(CAST) records identified by diversion class codes 40 & 50 with fee fundable GDEP codes.
Data Collection and Storage: During the reporting quarter, the field offices input case data into CAST.
The reporting of case information is available on a real time basis through SMARTS. CAST enables
the DEA to maintain all of the historical and investigative information on all individuals and
organizations investigated by the DEA.
Data Validation and Verification: The Diversion Investigator and/or Special Agent and the field office
Group Supervisor (GS) are tasked to ensure that timely and accurate reporting is accomplished as the
violator’s or registrant’s investigative status changes. The GS, the Diversion Program Manager (DPM)
and the Assistant Special Agent in Charge (ASAC) have the ability to view the report of ingoing and
completed investigation actions for their office/division at any time during the quarter or at the quarter’s
end, since the actions are in real-time.
Data Limitations: The enforceable longevity (duration) and the severity of the sanctions levied vary
among violators, registrants types and jurisdictions. Because there is no adequate methodology for
normalizing these data we have to rely on the field division’s data validation and verification
procedures. Therefore, while the DEA acknowledges this data limitation, it asserts that these data
have “face” or intrinsic validity due to the quality controls in place. The DEA affirms that it will continue
to proactively test and evaluate its validation and verification procedures in order to ensure the quality
and reliability of its data.

   Discussion of FY 2011 Diversion Control Program Accomplishments:

   Over the past several years, the Diversion Control Program has been working diligently
   to address the growing problem of diversion and prescription drug abuse. Criminal
   entrepreneurs have, over the past few years, leveraged technology to advance their
   criminal schemes and reap huge profits while diverting millions of dosages of powerful
   pain relievers such as hydrocodone. One such method was the use of rogue Internet
   pharmacies. Investigations involving Internet pharmacies required the DEA to retool and
   retrain investigators. Most of these investigations involved several jurisdictions and
   involved voluminous amounts of electronic data. Compounding the problem was the fact
   that many of the laws under which investigators worked were written years prior to
   today’s technological advances.

   The DEA also developed and implemented the Distributor Initiative Program designed to
   educate and remind registrants of their regulatory and legal responsibilities. This
   program has been very successful and has moved the pharmaceutical industry to install
   new and enhanced measures to address their responsibilities and due diligence as
   registrants. Despite these efforts the prescription drug abuse problem continues to be a
   major problem. Many state and local law enforcement agencies have devoted limited, if
   any resources, in the area of pharmaceutical diversion. To effectively attack this
   problem, the DEA, beginning in FY 2009, began establishing Tactical Diversion Squads
   (TDS) across the United States to tackle the growing problem of diversion and
   prescription drug abuse. These TDS groups, which incorporate Special Agents,
   Diversion Investigators and state and local Task Force Officers, have begun to show
   very successful investigations. Some of these investigations have resulted in multi­
   million dollar seizures. As of the end of FY 2011, 39 of the anticipated 40 TDS groups
   were deployed and operational.

   The result of all of the above improvements to the DCP has been the increase of the
   number of DCP criminal case initiations. The number of criminal cases initiated
   increased from 1,011 in FY 2010 to 1,900 in FY 2011. The FY 2011 target for criminal




                                                  - 21 -
case initiated was 2,036. DEA fell short of its ambitious target by 7 percent. During FY
2011, DEA refined its methodology for identifying DCP criminal cases initiated. DEA
previously only counted DCP cases that had a 2000 series case file number. DEA now
includes non-2000 series case file numbers that have a fee fundable drug code assigned
to them. As the DCP continues to work to fully staff its TDS groups, DEA expects the
target for criminal cases initiated to be met or exceeded.

Performance Measure: Number of DCP PTOs Disrupted / Dismantled

FY 2002 Actual Performance            N/A, Measure first reported in FY 2003.

FY 2003 Actual Performance          25 / 17

FY 2004 Actual Performance          13 / 14

FY 2005 Actual Performance          29 / 20

FY 2006 Actual Performance          36 / 25

FY 2007 Actual Performance          67 / 35

FY 2008 Actual Performance         130 / 66

FY 2009 Actual Performance         114 / 110

FY 2010 Actual Performance         156 / 106

FY 2011 Target                     180 / 110

FY 2011 Actual Performance         187 / 159





                                        - 22 -
                                                              Priority Target Organizations (PTOs)

                                                                            Diversion

                                                                   Disrupted and Dismantled1


                                                               OCDETF                                   Non-OCDETF                             Total


     Fiscal Year           PTO Linkages            PTOs       PTOs                          PTOs       PTOs                         PTOs       PTOs
                                                                             Total                                    Total                              Total
                                                 Disrupted Dismantled                     Disrupted Dismantled                    Disrupted Dismantled



    FY 2003 Actual   PTOs Linked to CPOT               -             -           -              -             -           -             -          -         -
                     PTOs Not Linked to CPOT            15            14          29             10               3        13            25         17        42
                     Total, FY 2003 Actual              15            14          29             10               3        13            25         17        42
    FY 2004 Actual   PTOs Linked to CPOT                 1           -                1         -             -           -              1         -              1
                     PTOs Not Linked to CPOT             8            10             18             4             4           8         12          14           26
                     Total, FY 2004 Actual               9            10             19             4             4           8         13          14           27
    FY 2005 Actual   PTOs Linked to CPOT                 1           -                1         -             -           -              1         -              1
                     PTOs Not Linked to CPOT            17            13             30          11               7        18           28          20           48
                     Total, FY 2005 Actual              18            13             31          11               7        18           29          20           49

    FY 2006 Actual   PTOs Linked to CPOT               -             -           -              -             -           -             -          -         -
                     PTOs Not Linked to CPOT            18            15          33             18            10          28            36         25        61
                     Total, FY 2006 Actual              18            15          33             18            10          28            36         25        61

    FY 2007 Actual   PTOs Linked to CPOT               -             -           -              -             -           -             -          -         -
                     PTOs Not Linked to CPOT            30            14          44             37            21          58            67         35       102
                     Total, FY 2007 Actual              30            14          44             37            21          58            67         35       102

    FY 2008 Actual   PTOs Linked to CPOT                 1           -                1         -             -           -              1         -           1
                     PTOs Not Linked to CPOT            51            19             70          78            47         125          129          66       195
                     Total, FY 2008 Actual              52            19             71          78            47         125          130          66       196

    FY 2009 Actual   PTOs Linked to CPOT                 1             1              2          1            -             1            2           1         3
                     PTOs Not Linked to CPOT            37            34             71         75             75         150          112         109       221
                     Total, FY 2009 Actual              38            35             73         76             75         151          114         110       224

    FY 2010 Actual   PTOs Linked to CPOT                 1             1              2          1              1           2            2           2         4
                     PTOs Not Linked to CPOT            47            32             79        107             72         179          154         104       258
                     Total, FY 2010 Actual              48            33             81        108             73         181          156         106       262
                                                          2             2             2             2             2           2
    FY 2011 Target   PTOs Linked to CPOT                                                                                               -           -         -
                                                          2             2             2             2             2           2
                     PTOs Not Linked to CPOT                                                                                           180         110       290
                                                          2             2             2             2             2           2
                     Total, FY 2011 Target                                                                                             180         110       290

    FY 2011 Actual   PTOs Linked to CPOT                 2             7              9          1              1           2            3           8        11
                     PTOs Not Linked to CPOT            53            34             87        131            117         248          184         151       335
                     Total, FY 2011 Actual              55            41             96        132            118         250          187         159       346
1
  Includes disruptions, closed (PTARRS status code E) and disruptions pending dismantlements (PTARRS status code D) Prior to FY 2003, DEA did not include
disruptions pending dismantlements in its reported numbers of PTO disruptions
2
    For planning purposes and the establishment of targets, DEA does not differentiate between OCDETF and non-OCDETF




                                                                            - 23 -
Data Definition: Disruption means impeding the normal and effective operation of the targeted
organization, as indicated by changes in organizational leadership and/or changes in methods of
operation, including, for example, financing, trafficking patterns, communications or drug production.
Disruption Pending Dismantlement means impeding the normal and effective operation of the targeted
organization, but continuing towards the organization’s complete evisceration such that it is incapable
of operating and/or reconstituting itself. Dismantlement means destroying the organization’s
leadership, financial base and supply network such that the organization is incapable of operating
and/or reconstituting itself. The first CPOT List was issued in September 2002, and is updated semi­
annually. The List identifies the most significant international drug trafficking and money laundering
organizations and those primarily responsible for the Nation’s drug supply. Enforcement agencies are
focused on identifying links among disparate domestic drug trafficking and money laundering
organizations and on making connections to their ultimate sources of supply. Investigators continually
work up and across the supply chain, with the goal of disrupting and dismantling the entire network
controlled by or supporting a given CPOT organization. An organization is considered "linked" to a
CPOT, if credible evidence exists (i.e., from corroborated confidential source information, phone tolls,
Title III intercepts, financial records, or other similar investigative means) of a nexus between the
primary target of the investigation and a CPOT target. The nexus need not be a direct connection to
the CPOT, so long as a valid connection exists to a verified associate or component of the CPOT
organization.
Data Collection and Storage: Each Country Office Attaché or Special Agent in Charge (SAC)
nominates PTOs in PTARRS based on intelligence information. Headquarters staff ensures that PTOs
are tracked and nominations are supported by data and information.
Data Validation and Verification: PTARRS provides a means of electronically validating and
verifying PTO data through the following approval chain:
 * Case Agent - Through PTARRS, the Special Agent (SA) or Diversion Investigator (DI) begins the
 process by creating and proposing a PTO.
 * Group Supervisor (GS) – The GS reviews the PTO proposed by the SA/DI and approves it or sends it
 back to the SA/DI for additional information/clarification.
 * Assistant Special Agent in Charge (ASAC) - The ASAC reviews the PTO approved by the GS. If all
 of the necessary information included in the proposal meets the established criteria for a PTO, the
 ASAC approves the PTO.
 * SAC - The SAC reviews the PTO approved by the ASAC and provides a case assessment for, or
 against, the nomination of the PTO. Once nominated by the SAC, PTARRS generates and saves a
 unique identification number for the nominated PTO.
* Headquarters – At Headquarters, PTOs nominated by the SAC are assigned to the appropriate
section within DEA's Office of Global Enforcement (OE). Once assigned, the corresponding OE Staff
Coordinator validates all information reported on the PTO nomination. The validation process includes
a review of the PTO nomination for completeness, compliance with established criteria, and
confirmation of all related case linkages, including links to CPOT targets. Staff Coordinators coordinate
with DEA's Special Operations Division and Intelligence Division to ensure that available facts exist to
support all case linkages. In the unlikely event the documentation submitted is insufficient to validate
the reported links; the Staff Coordinator will coordinate with the submitting GS to obtain the required
information.
Data Limitations: All statistics are limited by a lack of a relational link between case files and
enforcement outputs (e.g., arrest, seizure, and work hour data). The link is inferred through data
manipulation, but some areas are prone to error until all data systems are linked in a relational manner,
and errors are prevented through data validation and referential integrity.




                                                - 24 -
   Discussion of FY 2011 Diversion Control Program Accomplishments: Beginning in
   FY 2011, DEA reported its DCP PTOs separately under the Diversion Control Fee
   Account. As a participant in the PTO program, the DCP is required to report PTOs
   linked to CPOT and not linked to CPOT. However, with the nature of the DCP, CPOT
   linkages are a rare event. Beginning in FY 2010, with the creation of Tactical Diversion
   Squads (TDS) in every domestic field diversion, the DCP began focusing on the
   identification of PTOs and their eventual disruption and dismantlement. As the DCP
   continues to work to fully staff its TDS groups, PTO performance is expected to
   increase. In FY 2010, the number of PTOs disrupted was 156 and the number
   dismantled was 106. FY 2011 PTO targets are 180/110 respectfully. The actual number
   of PTOs disrupted and dismantled in FY 2011 was 187/159 respectfully. As a result of
   DEA refining its methodology for identifying DCP PTOs during FY 2011, the actual
   disruptions/dismantlements exceeded the established targets significantly. When the FY
   2011 targets were initially established, DEA only counted DCP PTOs that had a 2000
   series case file number. DEA now includes non-2000 series case file numbers that have
   a fee fundable drug code assigned to them.

   Performance Measure: Number of Administrative/Civil/Criminal Sanctions Imposed on
   Registrants/Applicants

   FY 2002 Actual Performance                 1,023
   FY 2003 Actual Performance                 1,040
   FY 2004 Actual Performance                 1,122
   FY 2005 Actual Performance                 1,138
   FY 2006 Actual Performance                 1,212
   FY 2007 Actual Performance                 1,261
   FY 2008 Actual Performance                 1,601
   FY 2009 Actual Performance                 1,557
   FY 2010 Actual Performance                 1,519
   FY 2011 Target                             1,717
   FY 2011 Actual Performance                 2,110


Data Definition: Consists of administrative code 1 (surrender for cause), code 2 (revocation), code 9
(suspension), code D (denial), code R (restriction), Letters of Admonition, Administrative Hearings, and
Civil Fines. Registrants lose or forfeit the DEA Registration or are convicted of a drug felony.
Registrants are permanently denied access to controlled substances pending a reversal of
circumstances.
Data Collection and Storage: During the reporting quarter, the Diversion field offices change the
status of a registrant’s CSA II master record to reflect any regulatory investigative actions that are being
conducted on the registrant. The reporting of the regulatory action by each field office is available on a
real-time basis through the reporting system within CSA II as the investigative status changes. The
regulatory investigative actions that are collected in a real-time environment are as follows: letters of
admonition/MOU, civil fines, administrative hearings, orders to show cause, restricted records,
suspensions, surrenders for cause, revocations, and applications denied. The CSA II enables the DEA
to maintain all of the historical and investigative information on the DEA registrants. It also serves as
the final repository for a majority of punitive (i.e., sanctions) actions levied against CSA violators.
Data Validation and Verification: The Diversion Investigator and the field office GS are tasked to
ensure that timely and accurate reporting is accomplished as the registrants investigative status
changes. Both GS and the DPM have the ability to view the report of ingoing and completed regulatory
investigation actions for their office/division at any time during the quarter or at the quarter’s end, since
the actions are in real-time.




                                                  - 25 -
Data Limitations: The enforceable longevity (duration) and the severity of the sanctions levied vary
among registrants types and jurisdictions. Because there is no adequate methodology for normalizing
these data we have to rely on Diversion’s data validation and verification procedures. Therefore, while
the DEA acknowledges this data limitation, it asserts that these data have “face” or intrinsic validity due
to the quality controls in place. Diversion affirms that it will continue to proactively test and evaluate its
validation and verification procedures in order to ensure the quality and reliability of its data.


   Discussion of FY 2011 Diversion Control Program Accomplishments:

   As the DEA continues to focus on more complex, trafficking organizations and the
   financial entities that support them, the number of administrative/criminal sanctions will
   increase. The DEA’s goal is to dismantle the organizations most responsible for the
   diversion of pharmaceuticals and precursor chemicals. In addition, collaborative
   enforcement efforts among Federal, State, and local law enforcement agencies and
   increases in Federal and State sponsored legislation that target and eliminate the
   methods previously exploited by diverters, have driven many of the most egregious
   elements out of the registrant populations. Between FY 2002 and 2010, the number of
   administrative/civil/criminal sanctions tracked by DEA have ranged from 1,023 (FY
   2002) to 1,519 (FY 2010). In FY 2010, DEA combined all types of sanctions and
   established a new target for FY 2011 of 1,717. In FY 2011, the DEA reported 2,110
   administrative/civil/criminal sanctions imposed on its registrants/applicants.


   ANALYSIS OF FINANCIAL STATEMENTS HIGHLIGHTS

   Financial Statements

   The DEA received an unqualified (“clean”) audit opinion from the independent public
   accounting firm of KPMG LLP on its FY 2011 financial statements provided on pages 25
   to 27. This is the thirteenth consecutive year the DEA received a clean opinion. This
   unqualified audit opinion provides independent assurance to the public that the
   information presented in the DEA financial statements is fairly presented, in all material
   respects, in conformity with U.S. generally accepted accounting principles.

   The following sections provide a discussion and analysis of the financial statements and
   related information.

   Statement of Net Cost

   The Statement of Net Cost presents the DEA’s results of operations. The following table
   presents the total results of operations for the last four fiscal years.


                                 Net (Cost)/Income (Dollars in Millions)
                           FY 2008              FY 2009             FY 2010             FY 2011
    Earned Revenue          $            575     $            593   $             678    $            723
    Program Cost            $         (2,514) $           (2,739) $            (2,901) $           (3,035)
    Net (Cost)/Income $               (1,938) $           (2,146) $            (2,223) $           (2,312)




                                                     - 26 -
The Statement of Net Cost compares fees earned to cost incurred during a specific
period of time.

Intragovernmental Revenues are predominately from reimbursable activity within the
Department of Justice, in particular agreements for task force support with Wireless
Management Office. Intragovernmental Revenues increased by 8.1 percent from FY
2010 to FY 2011 from $484M to $523M, respectively. The RA with WMO is to support
legacy systems operations and maintenance; and for subscriber by (radio equipment)
and related accessories. In FY 11 the RA increased by $17M and unlike in FY10 almost
all of the associated revenue was earned in the current fiscal year. This, along with the
revenue earned in FY 11 for the FY 10 agreements, resulted in a $69M increase to
earned revenue.


Consolidated Balance Sheet

The Consolidated Balance sheet shows that the DEA’s assets as of September 30, 2011
were $1,239M, a net decrease of $75M from FY 2010 balance of $1,314M. This
decrease is due primarily to a decrease in Fund Balance with Treasury of about $107M.

Fund Balance with Treasury was $702M at September 30, 2011, a 13.2 percent
decrease from the FY 2010 balance of $809M. Fund Balance with Treasury represents
56.7 percent of total assets. The decrease is due to the fact that late FY10 obligations
were expended in FY11 and a 3.5% decrease in budgetary resources in FY 11 from
FY10.

Intragovernmental Accounts Receivable was $44M at September 30, 2011, a 12.8
percent increase from the FY 2010 balance of $39M. Intragovernmental Accounts
Receivable represents 3.6 percent of total assets. This increase is due primarily to AR
of $27M for the FY11 AFF agreement which we did not have in FY10.

General Property, Plant, and Equipment increased 5.0 percent during FY 2011, from
$382M to $401M. General Property, Plant and Equipment represent 32.4 percent of
total assets. Making up the largest portion of the increase was Leasehold improvements
which increased $17M over this time period. A significant portion of this increase would
be the South East Lab opening.

Intragovernmental Liabilities were $100M at September 30, 2011, a 12.4 percent
increase from the FY 2010 balance of $89M. Intragovernmental liabilities represent 11.4
percent of total liabilities. A large portion of DEA’s Intragovernmental Liabilities, 35
percent, consists of accounts payable with DOJ and GSA. GSA Rent Payable increased
from $738 to $7.0M, from year end FY10 to year end FY11. This make up
approximately 56% of the increase.

Liabilities with the public were $780M at September 30, 2011, a 4.8 percent increase
from the FY 2010 balance of $744M. Liabilities with the public represent 88.6 percent of
total liabilities. Deferred Revenue increased $47M while AP with the Public decreased
$25M resulting in a net increase of $22M which accounts for 61.9% of the increase.




                                         - 27 -
Statement of Budgetary Resources

Total budgetary resources for spending are primarily comprised of Congressional
authority appropriated for current year use, as well as fee collections. The following
table displays the DEA’s total budgetary resources over the last four years, with the
related percentage change over the previous year.

                              Budgetary Resources (Dollars in Millions)

                                  FY 2008          FY 2009         FY 2010          FY 2011


 Budgetary Resources          $         2,819 $         3,067 $          3,276 $          3,160
  Percentage Change                    9.62%            8.81%           6.81%            (3.53%)


During FY 2011, the DEA’s total budgetary resources available for spending decreased
3.53 percent from the amount available in FY 2010. DEA incurred a small rescission in
FY 2011. The continued prioritization of limited resources and the stringent monitoring of
the execution of the DEA’s budget enable the DEA to maximize the use of limited
resources. The DEA continues to manage its resources efficiently and effectively to
support the mission of the agency.

Finally, Spending Authority from Offsetting Collections increased from FY 2010 to FY
2011 from $499M to $505M, as of September 30, 2011. These increases are primarily
due to increased intradepartmental reimbursable activity with Wireless Management
Office.


ANALYSIS OF SYSTEMS, CONTROLS, AND LEGAL COMPLIANCE

Management Controls Program in the DEA

The DEA remains committed to ensuring that funding allocated to combat drug
trafficking is managed effectively and efficiently. The DEA continually evaluates its
operations to improve management practices and the accuracy and soundness of the
agency’s financial data. In accordance with OMB Circular A-123 requirements, DEA
performed a comprehensive risk assessment of the financial and acquisition
performance of all 118 allowance managers’ offices. Based on the results of the risk
assessments, we performed on-site reviews at 12 high risk offices, 42 desk reviews, and
64 self-certification reviews.

DEA conducted comprehensive on-site reviews at 12 offices, at which time key
management controls were tested. The reviews analyzed source documentation,
conducted employee interviews, performed transaction walk-throughs, and ensured
compliance with the DEA’s Financial and Acquisition Management Policy Manual
(FAMPM), as well as applicable laws and regulations. The review process is part of
DEA’s management control program, which is designed to ensure that DEA’s financial
records, systems, and statements fairly present DEA’s financial position and results of




                                          - 28 -
operation. At the conclusion of each review, the team briefed management on the
results of the testing and discussed areas of concern as well as corrective action
recommendations. DEA monitors and tracks all corrective action plans and ensure timely
resolution of deficiencies. The DEA met all DOJ required A-123 deadlines, reporting
dates, and requirements.

The Financial Management Division provided extensive training to emphasize the
importance of internal controls, legal compliance with laws and regulations, as well as
provide managers and staff with the most current and up-to-date financial management
policies and procedures. The following training classes were offered:

       1.	 Conducted a 10 day “Train the Trainer” seminar for all Field Accountants. 24
           Accountants attended. This intense two-week class focused on Unified
           Financial Management System (UFMS) role-based training to assist the Field
           Accountants in training users within their respective Divisions. This training
           was drastically reduced the amount of travel that was necessary to train
           users across the country.
       2.	 Conducted six Undelivered Orders (UDO) classes. Students received
           instruction on: the definitions and impact of commitments and obligations and
           the reconciliation of unliquidated commitments; step-by-step instructions on
           the reconciliation and certification of UDO’s; the key roles of those with
           reconciliation responsibilities. A total of 45 individuals were trained.
       3.	 Conducted Temporary Duty (TDY) Travel Voucher Preparation Training for
           three Basic Agents classes, one Forensic Chemist class, one Diversion
           Investigators class, one class for the Fusion Center, and one class for Lab
           Systems. A total of 228 individuals were trained.
       4.	 Conducted three Foreign Orientation Program (FOP) classes for all new
           Permanent Change of Station (PCS) employees. Topics included: PCS travel
           voucher requirements; Relocation Income Tax Allowance; miscellaneous
           expense allowances; foreign payments and cash operations. A total of 138
           individuals were trained.
       5.	 Conducted 12 Imprest Fund Cashier classes. Each class was taught via
           Video Teleconference (VTC) to reduce the amount of travel necessary to
           train cashiers across the country and in Foreign offices. A total of 252
           individuals were trained.
       6.	 Conducted 23 UFMS classes at DEA Headquarters. The training was geared
           for new users, but also served as a refresher course for current users. A total
           of 175 individuals were trained.

Quarterly Status Report. As part of Departmental reporting requirements, the DEA
prepares a Quarterly Status Report (QSR) that includes data on obligations, availability
of funds, personnel, performance targets and results, workload targets and results, and
progress on outstanding Federal Managers’ Financial Integrity Act (FMFIA) findings.
The QSR has resulted in the timely identification of problems and the resolution of
identified deficiencies. In addition, the QSR has helped the DEA to meet the
preparation, auditing, and submission deadlines for the annual financial statements.

Managerial Cost Accounting (MCA) System. The MCA provides the DEA with full cost
information that is used to evaluate and report on operations, facilitate decision-making,
and assess performance. Specifically, the MCA integrates DEA costs with DEA
performance to show how the DEA resources are allocated to achieve its mission.



                                          - 29 -
Federal Managers’ Financial Integrity Act of 1982

The Federal Mangers’ Financial Integrity Act of 1982 (FMFIA) provides the statutory
basis for management’s responsibility for and assessment of internal accounting and
administrative controls. Such controls include program, operational, and administrative
areas, as well as accounting and financial management. FMFIA requires federal
agencies to establish controls that reasonably ensure that obligations and costs are in
compliance with applicable laws; funds, property, and other assets are safeguarded
against waste, loss, unauthorized use, or misappropriation; and revenues and
expenditures are properly recorded and accounted for to maintain accountability over the
assets. FMFIA also requires agencies to annually assess and report annually on the
internal controls that protect the integrity of federal programs (FMFIA § 2) and whether
financial management systems conform to related requirements (FMFIA § 4).

Guidance for implementing FMFIA is provided through OMB Circular A-123. In addition
to requiring agencies to provide an assurance statement on the effectiveness of
programmatic internal controls and conformance with financial systems requirements,
the Circular requires agencies to provide an assurance statement on the effectiveness of
internal control over financial reporting. The Department requires components to provide
both assurance statements in order to prepare the agency assurance statements.

Management of the DEA is responsible for establishing and maintaining effective internal
control and financial management systems that meet the objectives of the FMFIA. For
FY 2011, DEA assessed its internal control over the effectiveness and efficiency of
operations and compliance with applicable laws and regulations in accordance with
OMB Circular A123, Management’s Responsibility for Internal Control, as required by
Section 2 of the FMFIA. Based on the results of this assessment, DEA can provide
reasonable assurance that its internal control over the effectiveness and efficiency of
operations and its compliance with applicable laws and regulations as of June 30, 2011,
was operating effectively, except for one reportable condition – DEA’s ability to obtain
reliable estimates of drug availability in the United States. DEA also assessed whether
its financial management systems conform to government-wide requirements. Based on
the results of this assessment, DEA can provide reasonable assurance that there are no
non-conformances that are required to be reported by Section 4 of the FMFIA.

Management of the DEA is also responsible for identifying, designing, operating,
maintaining, and monitoring the existence of an appropriate system of internal control
that enables DEA to report its financial information accurately to the Department and that
meets the requirements of OMB Circular A-123, Appendix A. In accordance with OMB
Circular A-123 Implementation Plan, the Department’s Senior Assessment Team
identified the business processes significant at the Departmental level and at the
component level, which comprises a significant share of those processes. As required
by the Department’s FY 2011 Guidance for Implementation of OMB Circular A-123, DEA
has documented the following significant business processes and tested key controls for
those processes. The results of testing identified no material weaknesses in DEA’s
internal control over financial reporting as of June 30, 2011; however, the results
identified one reportable condition in the sensitive payments area.




                                         - 30 -
Federal Financial Management Improvement Act of 1996

The Federal Financial Management Improvement Act of 1996 (FFMIA) was designed to
improve federal financial and program managers’ accountability, provide better
information for decision-making, and improve the efficiency and effectiveness of federal
programs. FFMIA requires agencies to have financial managements systems that
substantially comply with federal financial management systems requirements,
applicable federal accounting standards, and the U.S. Standard General Ledger
(USSGL) at the transaction level. Furthermore, the Act requires independent auditors to
report on agency compliance with the three requirements in the financial statement audit
report. The Federal Information Security Management Act (FISMA) states that to be
substantially compliant with FFMIA, there are to be no significant deficiencies in
information security policies, procedures, or practices.

During FY 2011, the DEA assessed its financial management systems for compliance
with FFMIA and determined that they substantially comply with FFMIA. This
determination is based on the results of testing performed in accordance with OMB
Circular A-123, Appendix A. Consideration was also given to any issues identified
during the DEA’s financial statement audit.

Performance Management Scorecards

The DEA developed scorecards based on OMB’s financial management indicators. The
indicators include percentage of electronic payments to vendors, number of invoices
paid on time, amount of late payment interest penalties, and travel and purchase card
delinquency rates. The scorecards are issued quarterly to Special Agents in Charge
(SACs) and Office Heads in 28 headquarters and division offices. The DEA makes on­
line reports available, which allows SACs and Office Heads to track their office’s
progress and take corrective action as necessary to improve performance. At the end of
FY 2011, 27 offices were “Green” on the Performance indicators. The percentage of
invoices paid on-time improved from 99.09% (September 2010) to 99.37% (September
2011), resulting in an overall score of “Green”.

For FY 2011, the DEA undertook an aggressive effort to work with offices to improve
financial performance further by correcting identified deficiencies, with the goal of a
“green” rating for all performance indicators. This effort led to the establishment of the
DEA’s Financial Improvement Team (FITeam) Program. This program is designed to
provide fiscal offices with the tools to achieve and sustain financial management
performance improvements. Core service offerings available from the FITeam include: 1)
fiscal process evaluation, improvement and implementation; 2) staffing and role
assignment evaluation so that workload is distributed appropriately; 3) monitoring of
financial transaction and other staff performance metrics. The FITeam also works with
field offices through critical targeted strategic management discussions.

Legal Compliance

Under the FMFIA, DEA is required to submit its FY 2011 Assurance Statement and Sub-
Certification as well as any subsequent updates to DOJ. On August 19, 2011, DEA
submitted its Assurance Statement and Sub-Certification for the 9-month period of
October 1, 2010 to June 30, 2011. DEA reported that its programs and administrative




                                         - 31 -
activities and financial systems meet the objectives of Sections 2 and 4 of the FMFIA,
with one reportable condition in the area of sensitive payments. The reportable
condition, however, does not affect DEA’s ability to perform its mission and functions
with efficiency and integrity.

On October 14, 2011, DEA submitted an Update to its FY 2011 Assurance Statement
and Sub-Certification to DOJ for the remaining three months of the fiscal year (July 1,
2011 to September 30, 2011). For the period, DEA reported that its internal control is
operating effectively, and that the agency is unaware of any additional reportable
conditions or material weaknesses in the design or operation of internal control over
financial reporting.

Improper Payments Elimination and Recovery Act (IPERA) and Circular A-123
Appendix C

In accordance with OMB Circular A-123, Appendix C, Requirements for Effective
Measurement and Remediation of Improper Payments, and the Departmental guidance
for implementing the Improper Payments Elimination and Recovery Act (IPERA), the
Department implemented a top-down approach to assess the risk of significant improper
payments across all five of the Department’s mission-aligned programs, and to identify
and recapture improper payments through a payment recapture audit program. The
approach promotes consistency across the Department and enhances internal control
related to preventing, detecting, and recovering improper payments. Because of the
OMB requirement to assess risk and report payment recapture audit activities by agency
programs, the results of the Department’s risk assessment and recapture activities are
reported at the Department-level only.

In accordance with the Departmental approach for implementing IPERA, the DEA
assessed its activities for susceptibility to significant improper payments. The DEA also
conducted its payment recapture audit program in accordance with the Departmental
approach. The DEA provided the results of both the risk assessment and payment
recapture audit activities to the Department for the Department-level reporting in the FY
2011 Performance and Accountability Report.

The DEA has a robust compliance review process in place that is comprised of both
internal and external reviews that are conducted at regular intervals in support of OMB's
Circular No. A-136 and the Performance and Accountability Report. DEA’s financial
scorecard initiatives include monitoring payments daily and establishing a review
process of all payment documents. Payments that have been entered into the UFMS
with duplicate payment information are analyzed and flagged based on prior payment
history. This oversight process makes it possible to identify and recoup improper
payments in accordance with IPERA and the Prompt Payment Act. There are daily
communications with all the DEA’s offices to ensure that payment procedures are
followed as outlined in the DEA’s FAMPM. Furthermore, the DEA regularly provides
written guidance and assistance to offices to ensure timely and error-free payment
processing.




                                         - 32 -
POSSIBLE FUTURE EFFECTS OF EXISTING EVENTS AND CONDITIONS

Factors and Future Trends Affecting the DEA’s Goal Achievement

External Challenges: There are many external challenges that the DEA has to address
to meet its goals successfully. While these factors are beyond its control, the DEA can
provide tools and assistance to Headquarters and field personnel, as well as its federal,
State, local, and international partners, to minimize dangers. External challenges
include the following:

•	 The foremost challenge confronting U.S. law enforcement is the diminishing ability to
   conduct lawful electronic intercepts on current and emerging communications
   technologies as communications providers continue to offer new and improved
   services and features to customers. If this problem is not addressed, no law
   enforcement agency will be able to conduct a lawful criminal intercept in the not-
   distant future.

•	 As DEA’s law enforcement efforts improve, leaders of drug trafficking organizations
   are finding more sophisticated ways to insulate themselves from the criminal justice
   system. For example, they are using long and complex chains of delivery systems
   and state-of-the-art technology to keep their operations clandestine.

•	 Community Oriented Policing Services (COPS) funding directly impacts: (1) DEA’s
   ability to provide assistance to state and local law enforcement for the cleanup of
   seized methamphetamine laboratories; and (2) DEA’s ability to expand the
   Authorized Central Storage (ACS) Program to additional states.

•	 The smuggling, money remittance, and communications infrastructures utilized by
   international drug and chemical trafficking organizations will continue to provide an
   operational model that can be readily exploited by terrorist organizations.

•	 Source and transshipment such as Afghanistan and the continent of Africa continue
   to affect the United States and the world. Even if these drugs do not reach the U.S.,
   the proceeds from these drugs sustain the drug trafficking and terrorist organizations,
   fuel the next round of drug production, and further corrupt and destabilize emerging
   economies and democracies.

•	 Corruption of foreign officials can stymie the DEA’s efforts to affect international
   enforcement. Developing nations face an inordinate amount of problems (including
   indebtedness, insurgency, corruption, and underdevelopment) in conjunction with
   drug production and trafficking.

•	 The globalization of the social, technical, and economic environments of the United
   States and other nations creates new venues for drug production, transportation,
   diversion, and money laundering techniques.

•	 Recently, efforts to legalize marijuana have increased. Keeping drugs illegal
   reduces their availability and lessens willingness to use them. Legalizing drugs would
   increase accessibility and encourage promotion and acceptance of use. Diagnostic,
   laboratory, clinical, and epidemiological studies clearly indicate that marijuana use is




                                         - 33 -
   associated with dependence, respiratory and mental illness, poor motor

   performance, and cognitive impairment, among other negative effects, and

   legalization would only exacerbate these problems.


•	 Changes in laws could affect the closed system of distribution and allow distribution
   of foreign-sourced controlled substances.

•	 Continued growth in the abuse of legitimate controlled substances could replace or
   supplement illicit drugs.


Internal Challenges:

•	 Addressing critical infrastructure requirements, including overcrowding at El Paso
   Intelligence Center (EPIC).

•	 Enhancing career development opportunities to ensure effective succession planning
   in the DEA’s leadership, since 55 percent of DEA’s Senior Executives were eligible
   for retirement at the end of FY 2011.

•	 Complete and timely sharing of information and intelligence.

•	 Strengthening existing partnerships and building new ones with federal, State, local,
   and international counterparts.


LIMITATIONS OF THE FINANCIAL STATEMENTS

The financial statements have been prepared to report the financial position and results
of operations of the DEA, pursuant to the requirements of the 31 U.S.C. 3515(b).

While the statements have been prepared from the books and records of the DEA in
accordance with U.S. generally accepted accounting principles for federal entities and
the formats prescribed by OMB, the statements are in addition to the financial reports
used to monitor and control budgetary resources which are prepared from the same
books and records.

The statements should be read with the realization that they are for a component of the
U.S. Government, a sovereign entity.




                                         - 34 -
Independent Auditors’ Reports





          - 35 -
This page intentionally left blank.





               - 36 -
                                KPMG LLP
                                2001 M Street, NW
                                Washington, DC 20036-3389




                        Independent Auditors’ Report on Financial Statements


Acting Inspector General
U.S. Department of Justice


Administrator
Drug Enforcement Administration
U.S. Department of Justice


We have audited the accompanying consolidated balance sheets of the U.S. Department of Justice Drug
Enforcement Administration (DEA) as of September 30, 2011 and 2010, and the related consolidated
statements of net cost and changes in net position, and the combined statements of budgetary resources and
custodial activity (hereinafter referred to as “consolidated financial statements”) for the years then ended.
These consolidated financial statements are the responsibility of the DEA’s management. Our
responsibility is to express an opinion on these consolidated financial statements based on our audits.

We conducted our audits in accordance with auditing standards generally accepted in the United States of
America; the standards applicable to financial audits contained in Government Auditing Standards, issued
by the Comptroller General of the United States; and Office of Management and Budget (OMB) Bulletin
No. 07-04, Audit Requirements for Federal Financial Statements, as amended. Those standards and OMB
Bulletin No. 07-04 require that we plan and perform the audits to obtain reasonable assurance about
whether the consolidated financial statements are free of material misstatement. An audit includes
consideration of internal control over financial reporting as a basis for designing audit procedures that are
appropriate in the circumstances, but not for the purpose of expressing an opinion on the effectiveness of
the DEA’s internal control over financial reporting. Accordingly, we express no such opinion. An audit
also includes examining, on a test basis, evidence supporting the amounts and disclosures in the
consolidated financial statements, assessing the accounting principles used and significant estimates made
by management, as well as evaluating the overall consolidated financial statement presentation. We
believe that our audits provide a reasonable basis for our opinion.

In our opinion, the consolidated financial statements referred to above present fairly, in all material
respects, the financial position of the U.S. Department of Justice Drug Enforcement Administration as of
September 30, 2011 and 2010, and its net costs, changes in net position, budgetary resources, and custodial
activity for the years then ended in conformity with U.S. generally accepted accounting principles.

The information in the Management’s Discussion and Analysis and Required Supplementary Information
sections is not a required part of the consolidated financial statements, but is supplementary information
required by U.S. generally accepted accounting principles. We have applied certain limited procedures,
which consisted principally of inquiries of management regarding the methods of measurement and
presentation of this information. However, we did not audit this information and, accordingly, we express
no opinion on it.


                               KPMG LLP is a Delaware limited liability partnership,
                               the U.S. member firm of KPMG International Cooperative
                               (“KPMG International”), a Swiss entity.

                                                               - 37 -
Independent Auditors’ Report on Financial Statements
Page 2




In accordance with Government Auditing Standards, we have also issued our reports dated November 4,
2011, on our consideration of the DEA’s internal control over financial reporting and our tests of its
compliance with certain provisions of laws, regulations, contracts, and other matters. The purpose of those
reports is to describe the scope of our testing of internal control over financial reporting and compliance
and the results of that testing, and not to provide an opinion on the internal control over financial reporting
or on compliance. Those reports are an integral part of an audit performed in accordance with Government
Auditing Standards and should be read in conjunction with this report in assessing the results of our audits.




November 4, 2011




                                                     - 38 -
                                KPMG LLP
                                2001 M Street, NW
                                Washington, DC 20036-3389




             Independent Auditors’ Report on Internal Control over Financial Reporting


Acting Inspector General
U.S. Department of Justice


Administrator
Drug Enforcement Administration
U.S. Department of Justice


We have audited the consolidated balance sheets of the U.S. Department of Justice Drug Enforcement
Administration (DEA) as of September 30, 2011 and 2010, and the related consolidated statements of net
cost and changes in net position, and the combined statements of budgetary resources and custodial activity
(hereinafter referred to as “consolidated financial statements”) for the years then ended, and have issued
our report thereon dated November 4, 2011.

We conducted our audits in accordance with auditing standards generally accepted in the United States of
America; the standards applicable to financial audits contained in Government Auditing Standards, issued
by the Comptroller General of the United States; and Office of Management and Budget (OMB) Bulletin
No. 07-04, Audit Requirements for Federal Financial Statements, as amended. Those standards and OMB
Bulletin No. 07-04 require that we plan and perform the audits to obtain reasonable assurance about
whether the consolidated financial statements are free of material misstatement.

The management of the DEA is responsible for establishing and maintaining effective internal control. In
planning and performing our fiscal year 2011 audit, we considered the DEA’s internal control over
financial reporting by obtaining an understanding of the DEA’s internal control, determining whether
internal controls had been placed in operation, assessing control risk, and performing tests of controls as a
basis for designing our auditing procedures for the purpose of expressing our opinion on the consolidated
financial statements, but not for the purpose of expressing an opinion on the effectiveness of the DEA’s
internal control over financial reporting. Accordingly, we do not express an opinion on the effectiveness of
the DEA’s internal control over financial reporting. We did not test all internal controls relevant to
operating objectives as broadly defined by the Federal Managers’ Financial Integrity Act of 1982.

A deficiency in internal control exists when the design or operation of a control does not allow
management or employees, in the normal course of performing their assigned functions, to prevent, or
detect and correct misstatements on a timely basis. A material weakness is a deficiency, or a combination
of deficiencies, in internal control such that there is a reasonable possibility that a material misstatement of
the entity’s financial statements will not be prevented, or detected and corrected on a timely basis.

Our consideration of internal control over financial reporting was for the limited purpose described in the
third paragraph of this report and was not designed to identify all deficiencies in internal control over
financial reporting that might be deficiencies, significant deficiencies, or material weaknesses. In our fiscal
year 2011 audit, we did not identify any deficiencies in internal control over financial reporting that we

                                KPMG LLP is a Delaware limited liability partnership,
                                the U.S. member firm of KPMG International Cooperative
                                (“KPMG International”), a Swiss entity.

                                                                - 39 -
Independent Auditors’ Report on Internal Control over Financial Reporting
Page 2




consider to be material weaknesses, as defined above. However, we identified a certain deficiency in
internal control over financial reporting described in the Exhibit that we consider to be a significant
deficiency in internal control over financial reporting. A significant deficiency is a deficiency, or a
combination of deficiencies, in internal control that is less severe than a material weakness, yet important
enough to merit attention by those charged with governance.

The DEA’s response to the finding identified in our audit is presented in the Exhibit. We did not audit the
DEA’s response and, accordingly, we express no opinion on it.

This report is intended solely for the information and use of the DEA’s management, the U.S. Department
of Justice Office of the Inspector General, OMB, the U.S. Government Accountability Office, and the
U.S. Congress and is not intended to be and should not be used by anyone other than these specified
parties.




November 4, 2011




                                                   - 40 -
Independent Auditors’ Report on Internal Control over Financial Reporting
Page 3

                                                                                                  EXHIBIT



                                     SIGNIFICANT DEFICIENCY

This section contains our discussion of the significant deficiency we identified in internal control over
financial reporting.

Weaknesses in the Reporting of Non-Valued Seized Evidence

During FY 2011, DEA personnel relied upon the information contained within certain data fields in the
DEA’s evidence reporting system to report the disposal activity and on-hand weight of non-valued seized
evidence in the DEA’s annual financial statements. However, when the evidence reporting system was
queried, incorrect data fields were selected, which did not accurately report the disposal activity and on-
hand weight of seized drugs, in accordance with Statement of Federal Financial Accounting Standards No.
3, Accounting for Inventory and Related Property, and Federal Financial Accounting and Auditing
Technical Release No. 4, Reporting on Non-Valued Seized and Forfeited Property. Specifically, the query
was not properly factoring in partial destructions of bulk seizures, rather it was only accounting for the
disposal when the exhibit was fully destroyed. As a result of miscommunication between DEA personnel
and an incomplete understanding of the query being used to extract information from the DEA’s evidence
reporting system, DEA’s reporting process of the disposal activity and on-hand weight of non-valued
seized evidence information did not detect errors of 242,925 kilograms in a timely manner.

We make no recommendation corresponding with this finding because the DEA has implemented, and we
have tested, newly developed reports from its evidence reporting system and enhanced internal controls
which allow the DEA to accurately report the disposal activity and on-hand weight of its non-valued seized
evidence.


Management Response:

DEA concurs with this finding and has addressed the corrective actions necessary based on the absence of
any recommendation in this report. It should be noted that there are no internal control deficiencies present
over the DEA’s custody of drug evidence or related to the entry of information into the STRIDE system.
Additionally, the information reported as of September 30, 2011 in the Notes to the Financial Statements is
accurate and represents a disclosure with no financial impact. The data elements included in STRIDE are
accurate, however a less than preferable field was selected to represent the ending balances and this has
been corrected. It should also be noted that these extracts are not and were not used for any other purpose
than for financial statement note disclosure. There is no question over the safeguarding of DEA’s drug
evidence. There were no incidents identified where the DEA could not account for or locate drug evidence
exhibits.

DEA believes that the issuance of this finding could be misinterpreted, in that taken out of context it gives
the appearance that DEA has taken a step back in financial management or that DEA cannot locate or
account for drug evidence. Neither case is true; DEA continues to make improvements in all areas of
financial management and is confident that the internal controls in place are working effectively.



                                                    - 41 -
                               KPMG LLP
                               2001 M Street, NW
                               Washington, DC 20036-3389




                  Independent Auditors’ Report on Compliance and Other Matters


Acting Inspector General
U.S. Department of Justice


Administrator
Drug Enforcement Administration
U.S. Department of Justice


We have audited the consolidated balance sheets of the U.S. Department of Justice Drug Enforcement
Administration (DEA) as of September 30, 2011 and 2010, and the related consolidated statements of net
cost and changes in net position, and the combined statements of budgetary resources and custodial activity
(hereinafter referred to as “consolidated financial statements”) for the years then ended, and have issued
our report thereon dated November 4, 2011.

We conducted our audits in accordance with auditing standards generally accepted in the United States of
America; the standards applicable to financial audits contained in Government Auditing Standards, issued
by the Comptroller General of the United States; and Office of Management and Budget (OMB) Bulletin
No. 07-04, Audit Requirements for Federal Financial Statements, as amended. Those standards and OMB
Bulletin No. 07-04 require that we plan and perform the audit to obtain reasonable assurance about whether
the consolidated financial statements are free of material misstatement.

The management of the DEA is responsible for complying with laws, regulations, and contracts applicable
to the DEA. As part of obtaining reasonable assurance about whether the DEA’s fiscal year 2011
consolidated financial statements are free of material misstatement, we performed tests of the DEA’s
compliance with certain provisions of laws, regulations, and contracts, noncompliance with which could
have a direct and material effect on the determination of the consolidated financial statement amounts, and
certain provisions of other laws and regulations specified in OMB Bulletin No. 07-04, including the
provisions referred to in Section 803(a) of the Federal Financial Management Improvement Act of 1996
(FFMIA). We limited our tests of compliance to the provisions described in the preceding sentence, and
we did not test compliance with all laws, regulations, and contracts applicable to the DEA. However,
providing an opinion on compliance with those provisions was not an objective of our audit, and
accordingly, we do not express such an opinion.

The results of our tests of compliance described in the preceding paragraph, exclusive of those referred to
in FFMIA, disclosed no instances of noncompliance or other matters that are required to be reported herein
under Government Auditing Standards or OMB Bulletin No. 07-04.

The results of our tests of FFMIA disclosed no instances in which the DEA’s financial management
systems did not substantially comply with the (1) Federal financial management system requirements,
(2) applicable Federal accounting standards, and (3) application of the United States Government Standard
General Ledger at the transaction level.

                               KPMG LLP is a Delaware limited liability partnership,
                               the U.S. member firm of KPMG International Cooperative
                               (“KPMG International”), a Swiss entity.

                                                               - 42 -
Independent Auditors’ Report on Compliance and Other Matters
Page 2




This report is intended solely for the information and use of the DEA’s management, the U.S. Department
of Justice Office of the Inspector General, OMB, the U.S. Government Accountability Office, and the
U.S. Congress and is not intended to be and should not be used by anyone other than these specified
parties.




November 4, 2011




                                                 - 43 -
This page intentionally left blank.





               - 44 -
          Principal Financial Statements
                and Related Notes

See Independent Auditors’ Report on Financial Statements




                       - 45 -
                                              U.S. Department of Justice

                                          Drug Enforcement Administration

                                            Consolidated Balance Sheets

                                          As of September 30, 2011 and 2010




Dollars in Thousands                                                           2011              2010

ASSETS (Note 2)
     Intragovernmental
         Fund Balance with U.S. Treasury (Note 3)                         $      702,470     $    809,035
         Accounts Receivable, Net (Note 5)                                        43,655           39,117
         Other Assets (Note 9)                                                    47,061           51,090
     Total Intragovernmental                                                     793,186          899,242

       Cash and Monetary Assets (Note 4)                                           16,575           13,407
       Accounts Receivable, Net (Note 5)                                            5,998            2,325
       Inventory and Related Property, Net (Note 6)                                 7,506            6,770
       General Property, Plant and Equipment, Net (Note 8)                        401,220          382,137
       Advances and Prepayments                                                    14,700            9,929
Total Assets                                                              $     1,239,185    $   1,313,810

LIABILITIES (Note 10)
      Intragovernmental
          Accounts Payable                                                $       46,943     $     42,007
          Accrued Federal Employees' Compensation Act Liabilities                 27,222           26,651
          Custodial Liabilities (Note 19)                                          5,199            1,584
          Other Liabilities (Note 13)                                             20,766           18,726
      Total Intragovernmental                                                    100,130           88,968

       Accounts Payable                                                           92,054          117,280
       Actuarial Federal Employees' Compensation Act Liabilities                 149,846          144,858
       Accrued Payroll and Benefits                                               63,094           59,032
       Accrued Annual and Compensatory Leave Liabilities                          98,437           98,608
       Deferred Revenue                                                          358,742          311,164
       Seized Cash and Monetary Instruments (Note 12)                                440              447
       Contingent Liabilities (Note 14)                                            7,754            4,928
       Other Liabilities (Note 13)                                                 9,720            7,639
Total Liabilities                                                         $      880,217     $    832,924

NET POSITION
       Unexpended Appropriations - All Other Funds                        $       503,763    $     559,167
       Cumulative Results of Operations - Earmarked Funds (Note 15)              (232,162)        (159,279)
       Cumulative Results of Operations - All Other Funds                          87,367           80,998
Total Net Position                                                        $       358,968    $     480,886

Total Liabilities and Net Position                                        $     1,239,185    $   1,313,810




    ___________________________________________________________________________________________
                    The accompanying notes are an integral part of these financial statements.

                                                       - 46 -
                                                                U.S. Department of Justice

                                                            Drug Enforcement Administration

                                                          Consolidated Statements of Net Cost

                                                For the Fiscal Years Ended September 30, 2011 and 2010





         Dollars in Thousands

                                             Gross Costs                                        Less: Earned Revenues                         Net Cost of
                           Intra­               With the                                 Intra-        With the                               Operations
            FY          governmental             Public                 Total         governmental      Public              Total              (Note 16)

Goal 1     2011     $             15,196    $           90,886    $        106,082    $         687     $          6    $           693   $        105,389
           2010     $             24,424    $           75,891    $        100,315    $         632     $          -    $           632   $         99,683

Goal 2     2011                  907,038             2,021,967           2,929,005          521,896           200,321        722,217             2,206,788
           2010                  836,028             1,965,174           2,801,202          482,951           194,719        677,670             2,123,532

Total      2011     $            922,234    $        2,112,853    $      3,035,087    $     522,583     $     200,327   $    722,910      $      2,312,177
           2010     $            860,452    $        2,041,065    $      2,901,517    $     483,583     $     194,719   $    678,302      $      2,223,215


Goal 1   Prevent Terrorism and Promote the Nation's Security
Goal 2   Prevent Crime, Enforce Federal Laws, and Represent the Rights and Interests of the American People




                        _________________________________________________________________________________________
                                       The accompanying notes are an integral part of these financial statements.

                                                                          - 47 -
                                        U.S. Department of Justice

                                    Drug Enforcement Administration

                            Consolidated Statements of Changes in Net Position 

                              For the Fiscal Year Ended September 30, 2011 



Dollars in Thousands

                                                                                    2011
                                                             Earmarked           All Other
                                                               Funds              Funds             Total

Unexpended Appropriations
   Beginning Balances                                        $          -    $      559,167    $     559,167

   Budgetary Financing Sources
      Appropriations Received                                           -         2,019,682         2,019,682
      Appropriations Transferred-In/Out                                 -            71,029            71,029
      Other Adjustments                                                 -            (4,039)           (4,039)
      Appropriations Used                                               -        (2,142,076)       (2,142,076)

   Total Budgetary Financing Sources                                    -           (55,404)         (55,404)

   Unexpended Appropriations                                 $          -    $      503,763    $     503,763

Cumulative Results of Operations
   Beginning Balances                                        $   (159,279)   $       80,998    $     (78,281)

   Budgetary Financing Sources
      Appropriations Used                                               -         2,142,076        2,142,076

   Other Financing Sources
      Transfers-In/Out Without Reimbursement                            -            14,358           14,358
      Imputed Financing from Costs Absorbed
          by Others (Note 17)                                       9,396            79,833           89,229

   Total Financing Sources                                          9,396         2,236,267        2,245,663

   Net Cost of Operations                                         (82,279)       (2,229,898)       (2,312,177)

   Net Change                                                     (72,883)            6,369          (66,514)

   Cumulative Results of Operations                          $   (232,162)   $       87,367    $    (144,795)

Net Position                                                 $   (232,162)   $      591,130    $     358,968




___________________________________________________________________________________________
                The accompanying notes are an integral part of these financial statements.
                                                  - 48 -
                                     U.S. Department of Justice

                                 Drug Enforcement Administration

                         Consolidated Statements of Changes in Net Position

                           For the Fiscal Year Ended September 30, 2010 



Dollars in Thousands

                                                                                2010
                                                          Earmarked           All Other
                                                            Funds              Funds             Total

Unexpended Appropriations
   Beginning Balances                                     $           -   $      540,670    $     540,670

   Budgetary Financing Sources
       Appropriations Received                                        -        2,053,353         2,053,353
       Appropriations Transferred-In/Out                              -           39,756            39,756
       Appropriations Used                                            -       (2,074,612)       (2,074,612)

   Total Budgetary Financing Sources                                  -           18,497           18,497

   Unexpended Appropriations                              $           -   $      559,167    $     559,167

Cumulative Results of Operations
   Beginning Balances                                     $   (100,558)   $       85,653    $     (14,905)

   Budgetary Financing Sources
       Appropriations Used                                            -        2,074,612        2,074,612

   Other Financing Sources
        Transfers-In/Out Without Reimbursement                     86              9,432            9,518
        Imputed Financing from Costs Absorbed
            by Others (Note 17)                                  6,969            68,740           75,709

   Total Financing Sources                                       7,055         2,152,784        2,159,839

   Net Cost of Operations                                      (65,776)       (2,157,439)       (2,223,215)

   Net Change                                                  (58,721)           (4,655)         (63,376)

   Cumulative Results of Operations                       $   (159,279)   $       80,998    $     (78,281)

Net Position                                              $   (159,279)   $      640,165    $     480,886




___________________________________________________________________________________________
                The accompanying notes are an integral part of these financial statements.
                                                 - 49 -
                                        U.S. Department of Justice

                                    Drug Enforcement Administration

                             Combined Statements of Budgetary Resources

                        For the Fiscal Years Ended September 30, 2011 and 2010 


Dollars in Thousands                                        2011              2010

Budgetary Resources


 Unobligated Balance, Brought Forward, October 1        $     223,391    $     323,879


 Recoveries of Prior Year Unpaid Obligations                  102,053          129,127

 Budget Authority
   Appropriations Received                                  2,262,356         2,284,189
   Spending Authority from Offsetting Collections
      Earned
          Collected                                           529,938          537,802
          Change in Receivables from Federal Sources            4,563          (33,532)
      Change in Unfilled Customer Orders
          Advance Received                                        (28)               25
          Without Advance from Federal Sources                (29,182)           (5,407)
 Subtotal Budget Authority                                  2,767,647         2,783,077

 Nonexpenditure Transfers, Net, Actual                         71,029            39,756
 Permanently not Available                                     (4,039)                -
Total Budgetary Resources (Note 18)                     $   3,160,081    $    3,275,839




       ______________________________________________________________________________
                The accompanying notes are an integral part of these financial statements.
                                               - 50 -
                                               U.S. Department of Justice
                                           Drug Enforcement Administration
                              Combined Statements of Budgetary Resources (continued)
                               For the Fiscal Years Ended September 30, 2011 and 2010


Dollars in Thousands                                                               2011               2010


Status of Budgetary Resources
 Obligations Incurred
   Direct                                                                     $    2,492,777      $   2,532,674
   Reimbursable                                                                      509,012            519,774
       Total Obligations Incurred (Note 18)                                        3,001,789          3,052,448
 Unobligated Balance - Available
   Apportioned                                                                       118,503            195,008
         Total Unobligated Balance - Available                                       118,503            195,008
 Unobligated Balance not Available                                                    39,789             28,383
Total Status of Budgetary Resources                                           $    3,160,081      $   3,275,839


Change in Obligated Balance
 Obligated Balance, Net - Brought Forward, October 1
   Unpaid Obligations                                                         $      777,043      $     687,246
   Less: Uncollected Customer Payments from Federal Sources                          181,976            220,915
        Total Unpaid Obligated Balance, Net - Brought Forward, October 1             595,067            466,331
 Obligations Incurred, Net                                                         3,001,789          3,052,448
 Less: Gross Outlays                                                               2,964,749          2,833,524
 Less: Recoveries of Prior Year Unpaid Obligations, Actual                           102,053            129,127
 Change in Uncollected Customer Payments from Federal Sources                         24,619             38,939

 Obligated Balance, Net - End of Period
  Unpaid Obligations                                                                    712,030        777,043
  Less: Uncollected Customer Payments from Federal Sources                              157,357        181,976
     Total Unpaid Obligated Balance, Net - End of Period                      $         554,673   $    595,067


Net Outlays
 Gross Outlays                                                                $    2,964,749      $   2,833,524
 Less: Offsetting Collections                                                        529,910            537,827
 Less: Distributed Offsetting Receipts (Note 18)                                     243,616            231,967

Total Net Outlays (Note 18)                                                   $    2,191,223      $   2,063,730




    ___________________________________________________________________________________________
                    The accompanying notes are an integral part of these financial statements.
                                                        - 51 -
                                        U.S. Department of Justice

                                    Drug Enforcement Administration

                               Combined Statements of Custodial Activity

                        For the Fiscal Years Ended September 30, 2011 and 2010




Dollars in Thousands                                              2011            2010

Revenue Activity

 Sources of Cash Collections
    Fees and Licenses                                         $    15,000    $    15,000
    Fines, Penalties and Restitution Payments - Civil              82,268          5,963
        Total Cash Collections                                     97,268         20,963

 Accrual Adjustments                                                3,617            211

 Total Custodial Revenue                                          100,885         21,174

Disposition of Collections
  Transferred to Federal Agencies
      Department of the Treasury                                (97,268)       (20,891)
  (Increase)/Decrease in Amounts Yet to Be Transferred           (3,617)          (283)
Net Custodial Activity (Note 19)                              $       -      $       -




       ______________________________________________________________________________
                The accompanying notes are an integral part of these financial statements.

                                                 - 52 -
                              U.S. Department of Justice

                           Drug Enforcement Administration

                              Notes to the Financial Statements

                              (Dollars in Thousands, Except as Noted)


______________________________________________________________________________
Note 1. Summary of Significant Accounting Policies

      A. Reporting Entity

     Drug Enforcement Administration (DEA or the agency), a bureau within the Department of
     Justice (DOJ or the Department), is the lead agency responsible for the development of
     overall federal drug enforcement strategy, programs, planning, and evaluations. The DEA
     was created on July 1, 1973, as a result of the Presidential Reorganization Plan No. 2 of
     1973. The DEA’s mission is to enforce the United States’ controlled substances laws and
     regulations and to bring to justice individuals involved in the growing, manufacturing, or
     distribution of controlled substances appearing in or destined for illicit traffic in the U.S.
     The DEA is also responsible for recommending and supporting non-enforcement programs
     aimed at reducing the availability of illicit controlled substances in domestic and
     international markets.

     B. Basis of Presentation

     The accompanying financial statements were prepared to report the DEA’s financial
     position, net cost of operations, changes in net position, budgetary resources, and custodial
     activity as of and for the years ended September 30, 2011 and 2010. These financial
     statements include the following funds which are under the DEA’s control: appropriated
     annual, multi-year, and no-year Salary and Expense; appropriated no-year Construction;
     Diversion Control offsetting authority; and the Violent Crime Reduction Trust Fund.
     These financial statements represent the financial results of these funds. All DEA activities
     are conducted under Office of Management and Budget’s (OMB) Budget Functional
     Classification code 750 – Administration of Justice.

      These financial statements have been prepared from the books and records of the DEA in
      accordance with U.S. generally accepted accounting principles issued by the Federal
      Accounting Standards Advisory Board (FASAB) and presentation guidelines in the OMB
      Circular A-136, Financial Reporting Requirements. These financial statements are
      different from the financial reports prepared pursuant to OMB directives which are used to
      monitor and control the use of the DEA’s budgetary resources. To ensure that the DEA’s
      financial statements are meaningful at the entity level and to enhance reporting consistency
      within the Department, Other Assets and Other Liabilities as defined by OMB Circular A­
      136 have been disaggregated on the balance sheet.




                                            - 53 -
                             U.S. Department of Justice

                          Drug Enforcement Administration

                              Notes to the Financial Statements

                              (Dollars in Thousands, Except as Noted)


______________________________________________________________________________
Note 1. Summary of Significant Accounting Policies (continued)

     In OMB Circular A-136 Advances and Prepayments are considered Other Assets, and
     Accrued Federal Employees’ Compensation Act Liabilities (FECA), Custodial Liabilities,
     Accrued Payroll and Benefits, Contingent Liabilities, Accrued Annual and Compensatory
     Leave Liabilities, Deferred Revenue, and Seized Cash and Monetary Instruments are
     considered Other Liabilities.

     C. Basis of Consolidation

     The consolidated/combined financial statements include the accounts of the DEA. All
     significant proprietary intra-entity transactions and balances have been eliminated in
     consolidation. The Statements of Budgetary Resources and Statements of Custodial
     Activity are combined statements for FYs 2011 and 2010, and as such, intra-entity
     transactions have not been eliminated. The consolidated financial statements do not
     include centrally administered assets and liabilities of the Federal Government as a whole,
     such as General Services Administration (GSA) owned property and equipment and
     borrowings from the public by the U.S. Treasury, which may in part be attributable to the
     DEA.

     D. Basis of Accounting

     Transactions are recorded on the accrual and budgetary bases of accounting. Under the
     accrual basis, revenues are recorded when earned and expenses are recorded when
     incurred, regardless of when cash is exchanged. Under the budgetary basis, however,
     funds availability is recorded based upon legal considerations and constraints. As a result,
     certain line items on the proprietary financial statements may not equal similar line items
     on the budgetary financial statements.

     E. Non-Entity Assets

     Included in the assets reported in the accompanying balance sheets are non-entity assets.
     Non-entity assets are assets held by the DEA but are not available for use by the DEA. All
     of the DEA’s non-entity assets are with the public and consist primarily of seized monetary
     assets, cash generated from Attorney General Exempt Operations, and cash generated from
     Trafficker Directed Funds Activities. These assets cannot be used to satisfy the DEA’s
     obligations.




                                            - 54 -
                              U.S. Department of Justice

                           Drug Enforcement Administration

                               Notes to the Financial Statements

                               (Dollars in Thousands, Except as Noted)


______________________________________________________________________________
Note 1. Summary of Significant Accounting Policies (continued)

      F. Fund Balance with U.S. Treasury and Cash

      Generally, the U. S. Treasury processes cash receipts and disbursements. The DEA’s Fund
      Balance with the U.S. Treasury consists of appropriated funds that are available to pay
      current liabilities and finance authorized commitments. The DEA does not have disbursing
      authority. The DEA maintains a small amount of cash in commercial banks to facilitate the
      replenishment of the Agency’s imprest funds.

      G. Accounts Receivable

      Accounts receivable result from amounts due from federal agencies, public organizations,
      or individuals. Receivables due from federal agencies consist of reimbursable agreements
      for services provided by the DEA and are considered to be fully collectible.

      Receivables due from public organizations or individuals consist of refunds, restitutions,
      licensing fees, and civil monetary penalties. An allowance for uncollectible accounts is
      established for these receivables when it is more likely than not the receivables will not be
      totally collected. The allowance is measured based on analysis of both individual accounts
      and a group of accounts taken as a whole.

      H. Inventory and Related Property

      The DEA maintains an inventory of aviation parts and supplies in support of its aviation
      operations. The aviation inventory is valued at historical cost. Repairable parts are broken
      or expended parts that have been removed from DEA aircraft. Repairable parts are
      inoperable and may eventually be repaired, overhauled, discarded, or traded for “core”
      value against a new or rebuilt part. Repairable parts are valued at zero dollars.




                                             - 55 -
                              U.S. Department of Justice

                           Drug Enforcement Administration

                              Notes to the Financial Statements

                              (Dollars in Thousands, Except as Noted)


______________________________________________________________________________
Note 1. Summary of Significant Accounting Policies (continued)

      I. General Property, Plant and Equipment

     In accordance with Statement of Federal Financial Accounting Standards (SFFAS) No. 6,
     Accounting for Property, Plant, and Equipment and No. 10, Accounting for Internal Use
     Software, the DEA reports assets at historical cost or their estimated fair value if acquired
     through means other than purchase. The DEA capitalizes administrative and technical
     investigative equipment, vehicles, boats, and capital leases that have a total cost of $25 or
     greater. Buildings, construction-in-progress (CIP), leasehold improvements, and aircraft
     are capitalized when their total cost is $100 or greater. Land is capitalized regardless of the
     acquisition cost. Betterments that extend the useful life of an asset are also capitalized.
     The cost of minor enhancements resulting from ongoing systems maintenance is expensed
     in the period incurred. Also, the purchase of enhanced versions of software for a nominal
     charge are properly expensed in the period incurred. Internal use software is capitalized
     when the development cost or purchase price exceeds $500. Repairs and maintenance
     costs are expensed. Capitalized assets (other than land and CIP) are depreciated or
     amortized over useful lives ranging from 5 to 50 years using a straight-line method.

      J. Advances and Prepayments

      The DEA’s advances and prepayments consist of funds disbursed to other federal agencies
      in advance of receipt of goods or services, advances to state and local entities that
      participate in the Domestic Cannabis Eradication and Suppression Program, and travel
      advances issued to federal employees. Travel advances are limited to meals and incidental
      expenses incurred by federal employees during official travel. Advances and prepayments
      are recorded as an asset and are expensed when the related goods or services are received.
      Advances and prepayments involving other Federal agencies are classified as Other Assets
      on the balance sheet (Note 9).




                                            - 56 -
                             U.S. Department of Justice

                          Drug Enforcement Administration

                              Notes to the Financial Statements

                              (Dollars in Thousands, Except as Noted)


______________________________________________________________________________
Note 1. Summary of Significant Accounting Policies (continued)

      K. Forfeited and Seized Property

     The DEA routinely seizes property as part of its law enforcement activities. All property
     seized for forfeiture is reported by the DOJ’s Assets Forfeiture Fund, including property
     that has evidentiary value. As required by SFFAS No. 3, Accounting for Inventory and
     Related Property, seized monetary assets held for evidence by the DEA are recorded as
     assets with an offsetting liability. Non-monetary assets held for evidence are disclosed in a
     footnote to the financial statements at appraised or fair market value at the time of the
     seizure and are not adjusted for any subsequent increases or decreases in estimated fair
     market value with the exception of firearms which are disclosed according to the number of
     firearms added, disposed, and on-hand. Firearms are held until they are no longer needed
     as evidence and then destroyed. DEA uses a one thousand dollar reporting threshold for
     seized property. Illegal drugs seized and held as evidence by the DEA have no legal value
     and are reported in the footnotes by quantity only. The analysis of drug evidence is
     presented in accordance with Federal Financial Accounting and Auditing Technical
     Release No. 4, Reporting on Non-Valued Seized and Forfeited Property. The DEA
     discloses drug evidence that is categorized in Schedules 1 through 5 of the Controlled
     Substances Act. Drugs are destroyed when they are no longer needed for evidence.

     L. Liabilities

     The DEA’s liabilities consist of funds or other resources that are likely to be paid by the
     Agency as the result of a transaction or event that has already occurred. However, no
     liability can be paid absent proper budget authority. The federal government can accept
     liabilities for the DEA, when the Agency contractually acts in the sovereign capacity of the
     federal government. Accrued payroll and benefits are accrued based on the number of days
     in a pay period earned but not paid to employees at the end of the quarter.

     Intragovernmental liabilities covered by budgetary resources consist of expenses incurred
     by other Federal agencies for goods or services performed by those agencies on behalf of
     DEA where the DEA has not yet paid them. These expenses are funded by the DEA under
     reimbursable agreements.




                                            - 57 -
                              U.S. Department of Justice

                           Drug Enforcement Administration

                              Notes to the Financial Statements

                              (Dollars in Thousands, Except as Noted)


______________________________________________________________________________
Note 1. Summary of Significant Accounting Policies (continued)

      M. Contingencies and Commitments

     The DEA is party to various administrative proceedings, legal actions, and claims. The
     balance sheet includes an estimated liability for those legal actions where management and
     the Chief Counsel consider adverse decisions “probable” and amounts are reasonably
     estimable. Legal actions where management and the Chief Counsel consider adverse
     decisions “probable” or “reasonably possible” and the amounts are reasonably estimable
     are disclosed in Note 14, Contingencies and Commitments. However, there are cases
     where amounts have not been accrued or disclosed because the amounts of the potential
     loss cannot be estimated or the likelihood of an unfavorable outcome is “remote”.
     Reasonably possible losses are not recognized in the balance sheet. An unfunded liability
     is established when claims are determined to be probable and measurable. Settlements less
     than two thousand five hundred dollars are paid from the DEA’s appropriations. The U.S.
     Treasury Judgment Fund may pay, on behalf of the DEA, amounts in excess of two
     thousand five hundred dollars.

     N. Annual, Sick, and Other Leave

     Annual and compensatory leave earned by the DEA employees but not yet used is recorded
     as an accrued liability. Each year, the liability is adjusted to reflect current pay rates. Any
     portion of the accrued leave for which funding is not currently available is recorded as an
     unfunded liability. Sick leave and other types of non-vested leave are expensed as used.

     O. Interest on Late Payments

     The Prompt Payment Act (31 U.S.C. 3901-3907) requires federal agencies to pay invoices
     owed to vendors for the purchase of goods or services within 30 days after the receipt of a
     proper invoice or after the acceptance of the goods or service, whichever is later. Payments
     made after this date must include an interest penalty.




                                            - 58 -
                             U.S. Department of Justice

                          Drug Enforcement Administration

                             Notes to the Financial Statements

                             (Dollars in Thousands, Except as Noted)


______________________________________________________________________________
Note 1. Summary of Significant Accounting Policies (continued)

      P. Retirement Plans

      On January 1, 1984, the Federal Employees’ Retirement System (FERS) became effective
      pursuant to the Federal Employees’ Retirement System Act. Employees hired after
      December 31, 1983 are automatically covered by FERS and Social Security.

      Employees hired prior to January 1, 1984 can elect to join FERS and Social Security or
      remain in the Civil Service Retirement System (CSRS). For employees covered by CSRS
      the DEA contributes 7.0% of the employees’ gross pay for regular and 7.5% for law
      enforcement officers’ retirement. For employees covered by FERS, the DEA contributes
      11.7% of employees’ gross pay for regular and 25.7% for law enforcement officers’
      retirement. A primary feature of FERS is the Federal Thrift Savings Plan to which the
      DEA automatically contributes 1.0% of an employee’s pay and matches the employee’s
      contribution up to an additional 4.0%. The DEA also contributes the matching share of
      Social Security for FERS participants.

      The accompanying financial statements report expenses incurred by the DEA for required
      contributions made to retirement plans administered by the Office of Personnel
      Management (OPM). In accordance with SFFAS No. 5, Accounting for Liabilities of the
      Federal Government, the DEA recognizes an additional expense for Pension and Other
      Retirement Benefits incurred but not already covered by employee and DEA contributions.
      This expense will ultimately be paid by the OPM and is offset in the accompanying
      financial statements with an imputed financing source.




                                           - 59 -
                              U.S. Department of Justice

                           Drug Enforcement Administration

                               Notes to the Financial Statements

                               (Dollars in Thousands, Except as Noted)


______________________________________________________________________________
Note 1. Summary of Significant Accounting Policies (continued)

      Q. Federal Employee Compensation Benefits

     The FECA authorizes income and medical cost protection to covered federal civilian
     employees who are injured on the job or who have incurred a work-related occupational
     disease, and to beneficiaries of deceased employees whose death is attributable to a job-
     related injury or occupational disease. FECA benefit claims for the DEA employees are
     initially paid by the Department of Labor (DOL) and subsequently reimbursed by the DEA.

     The DEA’s FECA liability consists of two components: (1) unpaid bills and (2) an
     estimated future cost. Unpaid bills are claims paid by the DOL but not yet billed to or paid
     by the DEA. Estimated future costs are determined by applying actuarial procedures to
     anticipated future costs. The DOL is responsible for calculating the actuarial FECA
     liability for future compensation benefits for all federal agencies. These benefits include
     the liability for death, disability, medical, and miscellaneous costs for approved
     compensation cases. This liability is determined using a paid-losses extrapolation method
     calculated over a 37-year period. This method utilizes historical benefit payment patterns
     that relate to a specific period.

      Projected annual benefit payments are discounted to present value. The resulting liability
      is then distributed by DOL to each benefiting agency. The DOJ calculates and distributes
      each bureau’s respective portion of the total DOJ actuarial liability.

      The actuarial FECA liability is recorded for financial reporting purposes only and is an
      extended estimate of future costs which will not be obligated against budgetary resources
      until the year in which the cost is actually paid by the DEA.

      R. Intragovernmental Activity

      Intragovernmental costs and exchange revenue represent transactions made between two
      reporting entities within the federal government. Costs and earned revenues with the
      public represent exchange transactions made between the reporting entity and a non-federal
      entity. The classification of revenue or cost as “intragovernmental” or “with the public” is
      defined on a transaction-by-transaction basis. The purpose of this classification is to enable
      the federal government to prepare consolidated financial statements, not to match public
      and intragovernmental revenue with the costs incurred to produce public and
      intragovernmental revenue.




                                             - 60 -
                              U.S. Department of Justice

                           Drug Enforcement Administration

                               Notes to the Financial Statements

                               (Dollars in Thousands, Except as Noted)


______________________________________________________________________________
Note 1. Summary of Significant Accounting Policies (continued)

      S. Revenues and Other Financing Sources

      The DEA’s largest funding source is from congressional appropriations, which are used to
      support DEA’s operations. The DEA also receives reimbursable funding from other
      federal agencies for services performed by the DEA on their behalf. Annual, multi-year,
      and no-year appropriations are used within statutory limitations for operating and capital
      expenditures. Appropriations are recognized as a financing source when related program
      or administrative expenses are incurred.

     The DEA collects exchange revenue from several sources. The largest exchange revenue
     source for the DEA relates to the Diversion Control Program authorized by the Controlled
     Substances Act. This Act requires physicians, pharmacists, and chemical companies to be
     licensed with the DEA to manufacture and distribute certain controlled substances. The
     DEA charges a licensing fee for this service. Each fiscal year, federal statutes require $15
     million of the total fees collected for the Diversion Control Program to be transferred to the
     U.S. Treasury. Diversion Control Program license fees received from public registrants are
     renewed annually or triennially. The unearned portion of the fees is recorded as deferred
     revenue in the accompanying financial statements.

      Certain federal agencies pay expenses on behalf of the DEA where repayment is not
      required. These expenses are considered imputed financing and the DEA records them as
      both a financing source and expense.

      In addition, Agency personnel participate with state and local government organizations in
      the DEA mission related law enforcement task forces. State and local governments look to
      the DEA for expertise in intelligence and investigative support. The DEA Agents also
      participate in joint investigations with a variety of other federal organizations such as the
      Federal Bureau of Investigation (FBI), Assets Forfeiture Fund, Office of National Drug
      Control Policy, and the Organized Crime Drug Enforcement Task Force. Prices for the
      DEA participation in federal, state, and local law enforcement activities are established
      within the applicable reimbursable agreement.




                                             - 61 -
                              U.S. Department of Justice

                           Drug Enforcement Administration

                               Notes to the Financial Statements

                               (Dollars in Thousands, Except as Noted)


______________________________________________________________________________
Note 1. Summary of Significant Accounting Policies (continued)

      The table below summarizes the type of revenue sources and the typical pricing policy for
      exchange revenue:

                 Revenue Source	                                  Pricing Policy

       Controlled Substances Act Licensing             Full Cost, OMB Circular A-25,
                                                       User Charges

       State and Local Task Force Participation        Direct Cost Only

       Joint Intragovernmental Agency

       Investigations                                  Direct Cost Only

       Assets Forfeiture Fund                          Direct Cost Only


      T.	 Earmarked Funds

      The Statement of Federal Financial Accounting Standards No. 27, Identifying and
      Reporting Earmarked Funds, defines ‘earmarked funds’ as being financed by specifically
      identified revenues, often supplemented by other financing sources, which remain available
      over time. These specifically identified revenues and other financing sources are required
      by statute to be used for designated activities, benefits, or purposes, and must be accounted
      for separately from the Government’s general revenues. The three required criteria for an
      earmarked fund are:

      1.	 A statute committing the Federal Government to use specifically identified revenues
          and other financing sources only for designated activities, benefits or purposes;

      2.	 Explicit authority for the earmarked fund to retain revenues and other financing sources
          not used in the current period for future use to finance the designated activities,
          benefits, or purposes; and

      3.	 A requirement to account for and report on the receipt, use, and retention of the
          revenues and other financing sources that distinguishes the earmarked fund from the
          Government’s general revenues.

     The Diversion Control Fee account is the only DEA fund meeting these criteria for
     reporting purposes.




                                             - 62 -
                               U.S. Department of Justice

                            Drug Enforcement Administration

                                Notes to the Financial Statements

                                (Dollars in Thousands, Except as Noted)


______________________________________________________________________________
Note 1. Summary of Significant Accounting Policies (continued)

      U. Tax Exempt Status

      As an agency of the Federal Government, DEA is exempt from all income taxes imposed
      by any governing body whether it is a Federal, state, commonwealth, local, or foreign
      government.

      V. Use of Estimates

      The preparation of financial statements requires management to make certain estimates and
      assumptions that affect the reported amounts of assets and liabilities and the reported
      amounts of revenue and expenses during the reporting period. Actual results could differ
      from those estimates.

      W. Reclassifications

      The FY 2010 financial statements were reclassified to conform to the FY 2011
      Departmental financial statement presentation requirements. The reclassifications had no
      material effect on total assets, liabilities, net position, change in net position or budgetary
      resources as previously reported.

      X. Subsequent Events

      Subsequent events and transactions occurring after September 30, 2011 through the date of
      the auditors’ opinion have been evaluated for potential recognition or disclosure in the
      financial statements. The date of the auditors’ opinion also represents the date that the
      financial statements were available to be issued.




                                              - 63 -
                              U.S. Department of Justice

                           Drug Enforcement Administration

                              Notes to the Financial Statements

                              (Dollars in Thousands, Except as Noted)


______________________________________________________________________________
Note 2. Non-Entity Assets

      Non-entity assets are assets held by the DEA but are not available for use by the DEA. All
      of the DEA’s non-entity assets are with the public.

      As of September 30, 2011 and 2010

                                                        2011                 2010
       With the Public
        Cash and Monetary Assets                  $         10,143       $       7,999
        Accounts Receivable, Net                             5,152               1,528
             Total With the Public                          15,295               9,527
             Total Non-Entity Assets                        15,295               9,527
             Total Entity Assets                         1,223,890           1,304,283
             Total Assets                         $      1,239,185       $   1,313,810




                                            - 64 -
                              U.S. Department of Justice

                           Drug Enforcement Administration

                              Notes to the Financial Statements

                              (Dollars in Thousands, Except as Noted)


______________________________________________________________________________
Note 3. Fund Balance with U. S. Treasury

     The Fund Balance with U.S. Treasury reported on the consolidated balance sheets
     represents the undisbursed portion of all funds recorded in the DEA’s general ledger as of
     the end of each reporting period. The September 30, 2011 and 2010 balances include
     $4,532 and $7,185, respectively, of funds that are restricted for the purchase of official
     government vehicles.

     Restricted unobligated funds consist of expired authority and holdings that were not
     transferred to Treasury but were unavailable for the DEA’s use. Restricted unobligated
     funds are presented in the table below as Unobligated Balance-Unavailable. Restricted
     funds include the collections of fees in excess of amounts budgeted for administering the
     Diversion Control Program. These collections may not be used until authorized by
     Congress.

     As of September 30, 2011 and 2010

                                                                   2011           2010
     Fund Balances
       Special Funds                                          $     106,090   $   125,217
       General Funds                                                596,380       683,818
          Total Fund Balances with U.S. Treasury               $    702,470   $   809,035

     Status of Fund Balances
        Unobligated Balance – Available                        $ 118,503      $  195,008
        Unobligated Balance – Unavailable                           39,789        28,383
        Obligated Balance not yet Disbursed                       554,673        595,067
        Other Funds (With)/Without Budgetary Resources           ( 10,495)      ( 9,423)
          Total Status of Fund Balances                      $    702,470     $ 809,035

      Other Funds (With)/Without Budgetary Resources include clearing and deposit accounts,
      imprest fund cash and receipts.




                                            - 65 -
                              U.S. Department of Justice

                           Drug Enforcement Administration

                              Notes to the Financial Statements

                              (Dollars in Thousands, Except as Noted)


______________________________________________________________________________
Note 4. Cash and Monetary Assets

      As of September 30, 2011 and 2010

                                                          2011               2010
      Cash
         Undeposited Collections                      $         48       $        21
         Imprest Funds                                       6,393             5,392
         Other Cash                                          9,694             7,547
            Total Cash                                      16,135            12,960

      Monetary Assets
        Seized Monetary Instruments                            440               447
            Total Monetary Assets                              440               447
            Total Cash and Monetary Assets            $     16,575       $    13,407

      Other cash consists of funds used for special purposes.




                                            - 66 -
                              U.S. Department of Justice

                           Drug Enforcement Administration

                             Notes to the Financial Statements

                             (Dollars in Thousands, Except as Noted)


______________________________________________________________________________
Note 5. Accounts Receivable, Net

      As of September 30, 2011 and 2010

                                                           2011             2010
       Intragovernmental
           Accounts Receivable                        $     43,655      $    39,117
             Total Intragovernmental                        43,655           39,117
       With the Public
           Accounts Receivable                                8,193            3,939
           Allowance for Uncollectible Accounts             (2,195)          (1,614)
              Total With the Public                           5,998            2,325
              Total Accounts Receivable, Net          $     49,653      $    41,442


Note 6. Inventory and Related Property, Net

      As of September 30, 2011 and 2010

                                                           2011             2010
       Operating Materials and Supplies
         Held for Current Use                          $      7,506     $     6,770




                                           - 67 -
                              U.S. Department of Justice

                           Drug Enforcement Administration

                              Notes to the Financial Statements

                              (Dollars in Thousands, Except as Noted)


______________________________________________________________________________
Note 7. Forfeited and Seized Property

     Analysis of Change in Seized Property:

     Seized property is acquired during the course of an investigation. This property is
     considered contraband, evidence of a crime, or subject to forfeiture. Seized property
     includes monetary instruments, real property, and tangible personal property of others. The
     DEA reports seized property at market value when seized.

     Monetary seized property valued at $440 and $447 was held as evidence by the DEA on
     September 30, 2011 and 2010, respectively, and is included in Cash and Monetary Assets
     on the accompanying balance sheets (also refer to Note 4). The value of non-monetary
     property held as evidence is not reported in the accompanying consolidated balance sheets.
     Adjustments have been made to the beginning balances of seized property as a result of
     reconciling items from prior years.

      The analysis of drug evidence is presented in accordance with Federal Financial
      Accounting and Auditing Technical Release No. 4, Reporting on Non-Valued Seized and
      Forfeited Property. Drug evidence, as presented on the following tables, consists of
      analyzed and bulk drugs. Analyzed drug evidence includes cocaine, heroin, marijuana and
      methamphetamine and represents actual laboratory tested classification and weight in
      kilograms (KG). Since enforcing the controlled substances laws and regulations of the
      United States is a primary mission of the DEA, the DEA reports all analyzed drug evidence
      regardless of seizure weight.

      Bulk drug evidence is comprised of controlled substances housed by the DEA in secured
      storage facilities of which only a sample is taken for laboratory analysis. The actual bulk
      weight may vary from seizure weight due to changes in moisture content over time. Other
      primarily consists of illegal substances other than those discussed above.

      Unanalyzed drug evidence is qualitatively different from analyzed and bulk drug evidence
      because unanalyzed drug evidence includes the weight of packaging and drug categories
      are based on the determination of Special Agents instead of laboratory chemists. For these
      reasons, unanalyzed drug evidence is not reported by the DEA.




                                            - 68 -
                                      u.s. Department ofJustice 

                               Drug Enforcement Administration 

                                    Notes to the Financial Statements
                                    (Dollars in Thousands, Except as Noted)


Note 7. Forfeited and Seized Property (continued)

       For the PeIiod Ended September 30, 20 11
           Seized P roperty                 Beginning                                                                    Ending
               Category                      Balanc e Adjustments >i< >i<              Seizures         D isposals       Balance
       Seized for Evidence
        Seized Ivl onetmy
        Ins trume nts            Value       $        447     $               7    $           207      $       22 1     $         440

        P ersonal P ropelty      N umber                40                  16                     2              21                37
                                 Value       $        274 $                 (6 )   $              22    $        1 32    $         1 58
        N on-V alued 

         F irearms 
             N umb er           3 ,456              (163 )                 7 17             704             3 ,306
         D lug Evidence 

          Cocaine                KG              272 ,088         (222,263 )              26 ,852           26 ,660            50 ,0 17
          Heroin                 KG                3 ,022              (5 70 )                 784               546             2 ,690
          Marijuana              KG               16 ,07 1          ( 1 ,4 1 0 )           6 ,258            6 , 80 1          1 4, 11 8
          Bulk: D lug Evidence   KG              227 , 564             1 ,043          1,058 ,390       1 ,008 , 845         2 7 8 ,1 52
          Methamphetamine        KG                7 , 14 1         (1 ,9 29 )             2 , 565           1 ,366              6 ,4 11
          O the r                KG               45,430           ( 16 ,753 )             3,423             8 ,4 17          23 ,683
        Total D lug Evidence                     57 1 ,3 16       (24 1 ,882 )         1 ,098 ,272      1 ,052 ,635          375 ,07 1

       F or the P e110dEnded S eptembel" 30 , 20 1 0
           Seized P ropelty                 Beginning                                                                    Ending
              CategOlY                       Balance Adjustments >i< >i<               Seizures         D isposals       Balance
       Seized for Evidence
        Seized Monetaly          Value
                                             $        575     $               3    $           1 65     $       296      $         44 7
        Insttume nts
        P ersonal P ropelty      N umber               42 $                 (1 )                17               18                 40
                                 Value       $        266 $               (1 7 )   $           227      $       202      $         274
        N on-Valued
         F ireanns               Number             3 ,644              (13 6 )                643              695             3 ,456
         D lug Evidence
          Cocaine                KG              343 , 1 42        (35 ,079 )              33 , 526         69 , 50 1        272 ,088
          Heroin                 KG                 3 ,3 16           (1 84 )                   634              7 44           3 ,022
          Marijuana              KG               1 5 ,683                                  5 ,325           4 ,937           1 6 ,07 1
          Bulk: D lug Evidence   KG              223 ,936               1 ,278         1, 1 28 ,098     1 , 1 25 ,7 48       227,564
          Methamphetamine        KG                6 ,264                                    2 , 1 34          1 ,257          7 ,1 4 1
          O ther                 KG               46 , 185                                   5 ,258            6 ,013         45,430
        Total D lug Evidenc e                    638 , 526         (33 ,985 )          1, 1 7 4,9 75    1 ,208 ,200          57 1 ,3 1 6


      ** Adjustments include property status and valuation changes received after, but properly
      credited to, prior fiscal years. Valuation changes include updates and corrections to an
      asset's value recorded in a prior year. During FY 2011, DEA has access to better
      information that allowed the reporting of partial destructions of drugs held for evidence at
      the time of partial destruction rather than at the time the exhibit was fully destroyed.
      Therefore, DEA has recorded an adjustment in the FY 2011 "Adjustments" column of
      (242,925) kg to reflect the partial destruction of exhibits destroyed in prior years.


                                                      - 69 ­
                              U.S. Department of Justice

                           Drug Enforcement Administration

                               Notes to the Financial Statements

                              (Dollars in Thousands, Except as Noted)


______________________________________________________________________________
Note 7. Forfeited and Seized Property (continued)

      Method of Disposition of Seized Property:

      During FYs 2011 and 2010, $213 and $390 of valued property seized for evidence were
      returned to parties with a bonafide interest, and $140 and $108 were either released to a
      designated party or transferred to the appropriate federal entity under forfeiture or
      abandonment proceedings. Non-valued property was primarily disposed of through
      destruction.



      .




                                            - 70 -
                               U.S. Department of Justice

                            Drug Enforcement Administration

                                 Notes to the Financial Statements

                                 (Dollars in Thousands, Except as Noted)


______________________________________________________________________________
Note 8. General Property, Plant and Equipment, Net

      As of September 30, 2011             Acquisition       Accumulated      Net Book     Useful
                                              Cost           Depreciation      Value        Life
      Land and Land Rights               $     2,425       $          -     $     2,425      N/A
      Construction in Progress                 6,902                   -          6,902      N/A
      Buildings, Improvements, and
         Renovations                          88,078             30,676          57,402     50 yrs.
      Aircraft                               174,835             69,179         105,656   7-20 yrs.
      Boats                                    2,265              1,282             983     18 yrs.
      Vehicles                                93,990             42,580          51,410      5 yrs.
      Equipment                              214,569            142,286          72,283      5 yrs.
      Leasehold Improvements                 211,416            158,290          53,126   5-13 yrs.
      Internal Use Software                   81,676             33,213          48,463   5-10 yrs.
      Internal Use Software in
         Development                           2,570                   -          2,570       N/A
      Total                             $    878,726       $    477,506     $   401,220


      As of September 30, 2010             Acquisition       Accumulated      Net Book     Useful
                                              Cost           Depreciation      Value        Life
      Land and Land Rights               $     2,425       $           -    $     2,425      N/A
      Construction in Progress                 8,969                   -          8,969      N/A
      Buildings, Improvements, and
         Renovations                          86,537             24,551          61,986     50 yrs.
      Aircraft                               154,436             61,894          92,542   7-20 yrs.
      Boats                                    2,525              1,186           1,339     18 yrs.
      Vehicles                                84,682             38,815          45,867      5 yrs.
      Equipment                              202,687            127,655          75,032      5 yrs.
      Leasehold Improvements                 180,886            144,854          36,032   5-13 yrs.
      Internal Use Software                   43,155             20,156          22,999   5-10 yrs.
      Internal Use Software in
         Development                          34,946                  -          34,946       N/A
      Total                             $    801,248        $   419,111     $   382,137

      The DEA purchased $35,924 and $17,930 in capitalized property from federal sources
      during FY 2011 and 2010, respectively. Purchases of capitalized property from the public
      totaled $50,112 and $44,753 during FY 2011 and 2010, respectively.




                                               - 71 -
                             U.S. Department of Justice

                          Drug Enforcement Administration

                             Notes to the Financial Statements

                             (Dollars in Thousands, Except as Noted)


______________________________________________________________________________
Note 9. Other Assets

      As of September 30, 2011 and 2010

                                                        2011                 2010
       Intragovernmental
            Advances and Prepayments                $     47,061        $     51,090


Note 10. Liabilities not Covered by Budgetary Resources

      As of September 30, 2011 and 2010

                                                                            2011           2010
       Intragovernmental
         Accrued FECA Liabilities                                       $   27,222     $   26,651
         Other Unfunded Employment Related Liabilities                         164             68
           Total Intragovernmental                                          27,386         26,719

       With the Public
        Actuarial FECA Liabilities                                        149,846        144,858
        Accrued Annual and Compensatory Leave Liabilities                  98,437         98,608
        Deferred Revenue                                                  358,742        311,164
        Contingent Liabilities (Note 14)                                    7,754          4,928
          Total With the Public                                           614,779        559,558
          Total Liabilities not Covered by Budgetary Resources            642,165        586,277
          Total Liabilities Covered by Budgetary Resources                238,052        246,647
          Total Liabilities                                             $ 880,217      $ 832,924




                                           - 72 -
                              U.S. Department of Justice

                           Drug Enforcement Administration

                              Notes to the Financial Statements

                              (Dollars in Thousands, Except as Noted)


______________________________________________________________________________
Note 11. Leases

      In the course of operations, the DEA obtains certain property through leasing
      arrangements. These leases may be capital leases or operating leases as defined by SFFAS
      No. 5, Accounting for Liabilities of the Federal Government. The DEA does not act as a
      lessor. The DEA does not currently have any capital leases.

      Noncancelable Operating Leases

      In addition to GSA office space, leased assets are primarily for computer workstations.
      Lease terms are generally one year with an option to renew between three and five years.
      Most leases with GSA are cancelable and may be terminated without incurring charges.

      Future Noncancelable Operating Lease Payments

                                                                             Land and
       Fiscal Year                                                           Buildings
         2012                                                            $           18,604
         2013                                                                        22,150
         2014                                                                        22,174
         2015                                                                        22,501
         2016                                                                        22,598
         After 2016                                                                 128,287
          Total Future Noncancelable Operating
             Lease Payments                                              $         236,314




                                            - 73 -
                                   U.S. Department of Justice

                                Drug Enforcement Administration

                                    Notes to the Financial Statements

                                    (Dollars in Thousands, Except as Noted)


______________________________________________________________________________
Note 12. Seized Cash and Monetary Instruments

       The seized monetary instruments represent liabilities for seized assets held by the DEA
       pending disposition. The DEA may seize monetary instruments as part of its
       investigations. Some seized monetary instruments are retained by the DEA and reported as
       evidence. Seized monetary instruments valued at $440 and $447 was held as evidence by
       the DEA on September 30, 2011 and 2010, respectively, and is included in Cash and
       Monetary Assets on the accompanying balance sheets. The DEA reports all of its
       monetary instruments held as evidence under the heading of seized cash and monetary
       instruments. None of the monetary instruments held as evidence or for safekeeping as
       reported in Note 7 is deposited.


Note 13. Other Liabilities

       As of September 30, 2011 and 2010

                                                                   2011            2010

        Intragovernmental
           Employer Contributions and Payroll Taxes Payable    $      19,035   $     17,157
           Other Post-Employment Benefits Due and Payable                 44             15
           Other Unfunded Employment Related Liabilities                 164             68
           Advances from Others                                            1             29
           Liability for Deposit Fund, Clearing Accounts
           and Undeposited Collections                                 1,522          1,457
              Total Intragovernmental                                 20,766         18,726

        With the Public
          Other Accrued Liabilities                                        6              6
          Other Liabilities                                            9,714          7,633
              Total With the Public                                    9,720          7,639

              Total Other Liabilities                         $       30,486   $     26,365


       All other liabilities are current.




                                                  - 74 -
                               U.S. Department of Justice

                            Drug Enforcement Administration

                                Notes to the Financial Statements

                                (Dollars in Thousands, Except as Noted)


______________________________________________________________________________
Note 14. Contingencies and Commitments

      The DEA is party to various administrative proceedings, legal actions, and claims. The
      balance sheet includes an estimated liability for those legal actions where management and
      the Chief Counsel consider adverse decisions “probable” and amounts are reasonably
      estimable.

                                                                               Estimated Range of Loss
                                                    Accrued Liabilities        Lower            Upper
         As of September 30, 2011
               Probable                              $           7,754     $        7,754   $       7,754
               Reasonably Possible                                         $        3,708   $       3,708

         As of	 September 30, 2010
               Probable                             $            4,928     $        4,928   $       4,928
               Reasonably Possible                                         $        4,493   $       4,493




                                              - 75 -
                             U.S. Department of Justice

                          Drug Enforcement Administration

                              Notes to the Financial Statements

                              (Dollars in Thousands, Except as Noted)


______________________________________________________________________________
Note 15. Earmarked Funds

      Earmarked funds are financed by specifically identified revenues, often supplemented by
      other financing sources, which remain available over time. These specifically identified
      revenues and other financing sources are required by statute to be used for designated
      activities, benefits, or purposes, and must be accounted for separately from the
      Government’s general revenues. Other financing sources include Transfer-In/Out without
      Reimbursement and Imputed Financing from Costs Absorbed by Others.

     Public Law 102–395 established the Diversion Control Fee Account in 1993. Fees charged
     to private sector registrants by the DEA under the Diversion Control Program are set at a
     level that ensures the recovery of the full costs of operating this program. The program’s
     purpose is to prevent, detect, and investigate the diversion of controlled substances from
     legitimate channels, while ensuring an adequate and uninterrupted supply of controlled
     substances required to meet legitimate needs. Strategic objectives include: (1) Identifying
     and targeting those responsible for the diversion of pharmaceutical controlled substances
     through traditional investigation and cyber crime initiatives to systematically disrupt and
     dismantle those entities involved in diversion schemes; (2) Supporting the registrant
     population with improved technology, including E-Commerce and customer support while
     maintaining cooperation, support, and assistance from the regulated industry; (3) Educating
     the public on the dangers of prescription drug abuse and taking proactive enforcement
     measures to combat emerging drug trends; and, (4) Ensuring an adequate and uninterrupted
     supply of controlled substances to meet medical and scientific needs.

     The Diversion Control Fee Account is a separate account in the General Fund of the
     Treasury. Each fiscal year, offsetting receipts of $15 million are deposited in the Diversion
     Control Fee Account for the operation of the Diversion Control Program. These amounts
     remain available until expended and are refunded out of that account by the Secretary of
     the Treasury for reimbursement for expenses incurred in the operation of the Diversion
     Control Program. In order to sustain operations in both the first quarter (each fiscal year,
     federal statutes require $15 million of the total fees collected for the Diversion Control
     Program to be transferred to the U.S. Treasury) and in years where fees collected do not
     equal spending requirements, the Diversion Control Fee Account operates similarly to a
     revolving fund in that excess collections are carried over to the next fiscal year.




                                            - 76 -
                                   U.S. Department of Justice

                                Drug Enforcement Administration

                                    Notes to the Financial Statements

                                    (Dollars in Thousands, Except as Noted)


______________________________________________________________________________
Note 15. Earmarked Funds (continued)

    As of September 30, 2011 and 2010
                                                                    2011                    2010
                                                              Diversion Control       Diversion Control
                                                                Fee Account             Fee Account
   Balance Sheets
   Assets
     Fund Balance with U.S. Treasury                          $         104,565   $              123,755
     Other Assets                                                        46,184                   52,534
        Total Assets                                          $         150,749   $              176,289


    Liabilities
     Accounts Payable                                         $           6,923   $                8,479
     Other Liabilities                                                  375,988                  327,089
        Total Liabilities                                     $         382,911   $              335,568

    Net Position
     Cumulative Results of Operations                         $       (232,162)    $           (159,279)
        Total Net Position                                    $       (232,162)   $            (159,279)
        Total Liabilities and Net Position                    $        150,749    $              176,289

   For the Fiscal Years Ended September 30, 2011 and 2010
   Statements of Net Cost
     Gross Cost of Operations                                 $         277,514   $              255,152
     Less: Exchange Revenues                                            195,235                  189,376
         Net Cost of Operations                               $          82,279    $              65,776


   Statements of Changes in Net Position
     Net Position Beginning of Period                         $       (159,279)   $            (100,558)
     Other Financing Sources                                              9,396                     7,055
        Total Financing Sources                                           9,396                     7,055
     Net Cost of Operations                                            (82,279)                  (65,776)
     Net Change                                                        (72,883)                 ( 58,721)
     Net Position End of Period                               $       (232,162)   $            (159,279)




                                                  - 77 -
                                    U.S. Department of Justice

                                 Drug Enforcement Administration

                                     Notes to the Financial Statements

                                     (Dollars in Thousands, Except as Noted)


______________________________________________________________________________
Note 16. Net Cost of Operations by Suborganization
For the Fiscal Year Ended September 30, 2011
                                                        Suborganizations
                                                   All Other          Diversion        Consolidated

 Goal 1: Prevent Terrorism and Promote the Nation’s Security

    Gross Cost                                 $         106,082     $             -   $     106,082

    Less: Earned Revenue                                     693                   -            693

    Net Cost of Operations                               105,389                   -         105,389

 Goal 2: Prevent Crime, Enforce Federal Laws, and Represent the Rights and Interests of the American
 People

    Gross Cost                                 $        2,651,491    $       277,514   $   2,929,005
    Less: Earned Revenue                                  526,982            195,235         722,217
    Net Cost of Operations                              2,124,509             82,279       2,206,788

 Net Cost of Operations                        $        2,229,898    $        82,279   $   2,312,177

For the Fiscal Year Ended September 30, 2010
                                                        Suborganizations
                                                   All Other           Diversion       Consolidated

 Goal 1: Prevent Terrorism and Promote the Nation’s Security

    Gross Cost                                 $           100,315       $         -   $     100,315
    Less: Earned Revenue                                       632                 -             632
    Net Cost of Operations                                  99,683                 -          99,683

 Goal 2: Prevent Crime, Enforce Federal Laws, and Represent the Rights and Interests of the American
 People

    Gross Cost                                 $         2,546,050   $       255,152   $    2,801,202
    Less: Earned Revenue                                   488,294           189,376          677,670
    Net Cost of Operations                               2,057,756            65,776        2,123,532

 Net Cost of Operations                        $         2,157,439       $    65,776   $    2,223,215




                                                    - 78 -
                             U.S. Department of Justice

                          Drug Enforcement Administration

                              Notes to the Financial Statements

                              (Dollars in Thousands, Except as Noted)


______________________________________________________________________________
Note 17. Imputed Financing from Costs Absorbed by Others

     Imputed Inter-Departmental Financing Sources are the unreimbursed (i.e., non-
     reimbursed and under-reimbursed) portion of the full costs of goods and services received
     by the DEA from a providing entity that is not part of the U.S. Department of Justice. In
     accordance with SFFAS No. 30, Inter-Entity Cost Implementation Amending SFFAS 4,
     Managerial Cost Accounting Standards and Concepts, the material Imputed Inter-
     Departmental financing sources recognized by the DEA are the cost of benefits for the
     Federal Employees Health Benefits Program (FEHB), the Federal Employees’ Group Life
     Insurance Program (FEGLI), the Federal Pension plans that are paid by other Federal
     entities, and any un-reimbursed payments made from the Treasury Judgment Fund on
     behalf of the DEA. The Treasury Judgment Fund was established by the Congress and
     funded at 31 U.S.C. 1304 to pay in whole or in part the court judgments and settlement
     agreements negotiated by the Department on behalf of agencies, as well as certain types of
     administrative awards. Interpretation of Federal Financial Accounting Standards
     Interpretation No. 2, Accounting for Treasury Judgment Fund Transactions, requires
     agencies to recognize liabilities and expenses when unfavorable litigation outcomes are
     probable and the amount can be estimated and will be paid by the Treasury Judgment Fund.

     SFFAS No. 5, Accounting for Liabilities of the Federal Government, requires that
     employing agencies recognize the cost of pensions and other retirement benefits during
     their employees’ active years of service. SFFAS No. 5 requires OPM to provide cost
     factors necessary to calculate cost. OPM actuaries calculate the value of pension benefits
     expected to be paid in the future, and then determine the total funds to be contributed by
     and for covered employees, such that the amount calculated would be sufficient to fund the
     projected pension benefits. For employees covered by Civil Service Retirement System
     (CSRS), the cost factors are 30.1% of basic pay for regular, 51.1% for law enforcement
     officers, and 23.5% regular offset, and 45.6% law enforcement officers offset. For
     employees covered by Federal Employee Retirement System (FERS), the cost factors are
     13.8% of basic pay for regular and 29.8% for law enforcement officers.

     The cost to be paid by the other agencies is the total calculated future costs, less employee
     and employer contributions. In addition, other retirement benefits, which include health
     and life insurance that are paid by other Federal entities, must also be recorded.




                                            - 79 -
                                U.S. Department of Justice

                             Drug Enforcement Administration

                                  Notes to the Financial Statements

                                  (Dollars in Thousands, Except as Noted)


______________________________________________________________________________
Note 17. Imputed Financing from Costs Absorbed by Others (continued)

      For the Fiscal Years Ended September 30, 2011 and 2010 

                                                                 2011            2010

      Imputed Inter-Departmental Financing

         Treasury Judgment Fund                             $      3,814     $     6,016
         Health Insurance                                         50,614          46,899
         Life Insurance                                              198             195
         Pension                                                  34,603          22,599
            Total Imputed Inter-Departmental                 $    89,229     $    75,709


      The U.S. Department of the Treasury makes payments for the Judgment Fund, while the
      OPM pays health insurance, life insurance, and pension amounts in excess of government
      and employee contributions.

      Imputed Intra-Departmental Financing Sources as defined in SFFAS No. 4,
      Managerial Cost Accounting Standards and Concepts, are the unreimbursed portion of the
      full costs of goods and services received by the DEA from a providing entity that is part of
      the Department. Recognition is required for those transactions determined to be material to
      the receiving entity. The determination of whether the cost is material requires
      considerable judgment based on the specific facts and circumstances of each type of good
      or service provided. SFFAS No. 4 also states that costs for broad and general support need
      not be recognized by the receiving entity, unless such services form a vital and integral part
      of the operations or output of the receiving entity. Costs are considered broad and general
      if they are provided to many, if not all, reporting components and not specifically related to
      the receiving entity’s output. The DEA currently does not record any Imputed Intra-
      Departmental Financing Sources.




                                                - 80 -
                                U.S. Department of Justice

                             Drug Enforcement Administration

                                 Notes to the Financial Statements

                                 (Dollars in Thousands, Except as Noted)


______________________________________________________________________________
Note 18. Information Related to the Statement of Budgetary Resources

     Apportionment Categories of Obligations Incurred:

     The direct and reimbursable obligations under Categories A and B are reported in the table
     below. Apportionment categories are determined in accordance with the guidelines
     provided in Part 4 “Instructions on Budget Execution” of OMB Circular A-11 Preparation,
     Submission and Execution of the Budget. Category A represents resources apportioned for
     calendar quarters and Category B represents resources apportioned for other time periods
     or for activities, projects, objectives or for a combination thereof.

                                                                                           Total
                                                        Direct          Reimbursable    Obligations
                                                      Obligations        Obligations     Incurred
       For the Fiscal Year Ended September 30, 2011
         Obligations Apportioned Under
          Category A                                  $ 2,400,410       $     509,012   $ 2,909,422
          Category B                                       92,367                   -        92,367
         Total                                        $ 2,492,777       $     509,012   $ 3,001,789

       For the Fiscal Year Ended September 30, 2010
         Obligations Apportioned Under
          Category A                                  $ 2,404,852       $     519,774   $ 2,924,626
          Category B                                      127,822                   -       127,822
         Total                                        $ 2,532,674       $     519,774   $ 3,052,448



      Status of Undelivered Orders:

      Undelivered Orders (UDO) represent the amount of goods and/or services ordered, which
      have not been actually or constructively received. This amount includes any orders which
      may have been prepaid or advanced but for which delivery or performance has not yet
      occurred.

      As of September 30, 2011 and 2010

                                                            2011              2010
                   UDO Obligations Unpaid                 $ 486,168         $ 536,545
                   UDO Obligations Prepaid/Advanced          60,885            60,473
                     Total UDO                            $ 547,053         $ 597,018




                                                - 81 -
                                U.S. Department of Justice

                             Drug Enforcement Administration

                                 Notes to the Financial Statements

                                 (Dollars in Thousands, Except as Noted)


______________________________________________________________________________
Note 18. Information Related to the Statement of Budgetary Resources (continued)

      Statement of Budgetary Resources vs. the Budget of the United States Government:

      The following table identifies known differences between the DEA’s Statement of
      Budgetary Resources and the Budget of the United States. The reconciliation as of
      September 30, 2011 is not presented because the submission of the Budget of the United
      States Government (Budget) for FY 2013, which presents the execution of the FY 2011
      Budget, occurs after publication of these financial statements. The Department of Justice
      Budget Appendix can be found on the OMB website (http://www.whitehouse.gov/omb/budget)
      and will be available in early February 2012.

      For the Fiscal Year Ended September 30, 2010
      (Dollars in Millions)

                                                                                   Distributed
                                                 Budgetary        Obligations      Offsetting             Net
                                                 Resources         Incurred         Receipts             Outlays

       Statement of Budgetary Resources (SBR)    $    3,276       $     3,052      $       232       $      2,064

       Funds not Reported in the Budget:
          Expired Funds                                  (66)               (37)                 -                 -
         Appropriated Trust or Special Fund
           Receipts                                         -                  -                 -            231
         Redistribution of Clearing Accounts
           and Miscellaneous Receipts                     -                 -               (1)                  1
         Other                                            -                 -                 -                (1)
       Budget of the United States Government    $    3,210       $     3,015      $       231       $      2,295



      In addition to the above, reconciliation with the SF-133, Report on Budget Execution and
      Budgetary Resources, was performed. This reconciliation confirmed that differences
      between the Statement of Budgetary Resources and the SF-133 are also the result of the
      adjustments identified above.




                                                - 82 -
                              U.S. Department of Justice

                           Drug Enforcement Administration

                              Notes to the Financial Statements

                              (Dollars in Thousands, Except as Noted)


______________________________________________________________________________
Note 19. Net Custodial Revenue Activity

      For the fiscal periods ended September 30, 2011 and 2010, DEA collected $97,268 and
      $20,963 respectively. These collections include $15 million of the total fees collected for
      the cost of operation of the Diversion Control Program and civil monetary penalties related
      to violations of the Controlled Substances Act that were incidental to DEA’s mission.
      Since DEA has no statutory authority to use these funds, DEA transmits them to the U.S.
      Treasury’s General Fund. The DEA has a custodial liability for funds that have not yet
      been transmitted to the U.S. Treasury’s General Fund. The September 30, 2011 and 2010
      balances for custodial liabilities were $5,199 and $1,584, respectively.




                                            - 83 -
                                 U.S. Department of Justice

                              Drug Enforcement Administration

                                  Notes to the Financial Statements

                                  (Dollars in Thousands, Except as Noted)


______________________________________________________________________________
Note 20. Reconciliation of Net Cost of Operations (proprietary) to Budget (formerly the
Statement of Financing)

      For the Fiscal Years Ended September 30, 2011 and 2010
                                                                                    2011          2010

      Resources Used to Finance Activities
        Budgetary Resources Obligated
           Obligations Incurred                                                  $ 3,001,789   $ 3,052,448
           Less: Spending Authority from Offsetting Collections and Recoveries       607,344       628,015
           Obligations Net of Offsetting Collections and Recoveries                2,394,445     2,424,433
           Less: Offsetting Receipts                                                 243,616       231,967
           Net Obligations                                                         2,150,829     2,192,466

         Other Resources
           Transfers-In/Out Without Reimbursement                                    14,358          9,518
           Imputed Financing from Costs Absorbed by Others (Note 17)                 89,229         75,709
           Net Other Resources Used to Finance Activities                           103,587         85,227
         Total Resources Used to Finance Activities                               2,254,416      2,277,693

      Resources Used to Finance Items not Part of the Net Cost of Operations
           Net Change in Budgetary Resources Obligated for Goods, Services,
              and Benefits Ordered but not Yet Provided                              20,755      (102,608)
           Resources That Fund Expenses Recognized in Prior Periods (Note 21)          (171)      (12,067)
           Resources That Finance the Acquisition of Assets                         (86,036)      (62,683)
           Other Resources or Adjustments to Net Obligated Resources
              That do not Affect Net Cost of Operations                              (8,692)       (1,714)
      Total Resources Used to Finance Items not Part of the Net Cost
          of Operations                                                             (74,144)     (179,072)

      Total Resources Used to Finance the Net Cost of Operations                 $ 2,180,272   $ 2,098,621




                                                 - 84 -
                                    U.S. Department of Justice

                                 Drug Enforcement Administration

                                   Notes to the Financial Statements

                                   (Dollars in Thousands, Except as Noted)


______________________________________________________________________________

Note 20. Reconciliation of Net Cost of Operations (proprietary) to Budget (formerly the
Statement of Financing) (continued)

        For the Fiscal Years Ended September 30, 2011 and 2010                    2011           2010

        Components of Net Cost of Operations That Will not Require

           or Generate Resources in the Current Period


           Components That Will Require or Generate Resources
                in Future Periods (Note 21)                                   $    55,997    $    53,396
              Depreciation and Amortization                                        78,307         71,510
              Other                                                                (2,399)         (312)

        Total Components of Net Cost of Operations That Will not
           Require or Generate Resources in the Current Period                    131,905        124,594

        Net Cost of Operations                                                $ 2,312,177    $ 2,223,215




                                                  - 85 -
                                U.S. Department of Justice

                             Drug Enforcement Administration

                                 Notes to the Financial Statements

                                 (Dollars in Thousands, Except as Noted)


______________________________________________________________________________
Note 21. 	Explanation of Differences Between Liabilities not Covered by Budgetary
          Resources and Components of Net Cost of Operations Requiring or Generating
          Resources in Future Periods

      Liabilities that are not covered by realized budgetary resources and for which there is not
      certainty that budgetary authority will be realized, such as the enactment of an
      appropriation, are considered liabilities not covered by budgetary resources. These
      liabilities totaling $642,165 and $586,277 on September 30, 2011 and 2010, respectively,
      are discussed in Note 10, Liabilities not Covered by Budgetary Resources. Decreases in
      these liabilities result from current year budgetary resources that were used to fund
      expenses recognized in prior periods. Increases in these liabilities represent unfunded
      expenses that were recognized in the current period. These increases, along with the
      change in the portion of exchange revenue receivables from the public, which are not
      considered budgetary resources until collected, represent components of current period net
      cost of operations that will require or generate budgetary resources in future periods. The
      changes in liabilities not covered by budgetary resources and receivables generating
      resources in future periods are comprised of the following:

      For the Fiscal Years Ended September 30, 2011 and 2010

                                                                                   2011            2010
        Resources that Fund Expenses Recognized in Prior Periods
         Decrease in Accrued Annual and Compensatory Leave                           (171)              ­
         Decrease in Contingent Liabilities                                             -         (12,067)
             Total Resources that Fund Expenses Recognized in Prior Periods        $ (171)      $ (12,067)



        Components of Net Cost of Operations that Will Require or Generate Resources in Future Periods
         Increase in Accrued Annual and Compensatory Leave Liabilities          $         -      $     5,134
         (Increase)/Decrease in Exchange Revenue Receivable from the Public            (62)              261
        Other
         Increase in Actuarial FECA Liabilities                                      4,988             5,550
         Increase in Accrued FECA Liabilities                                           571            1,057
         Increase in Deferred Revenue                                               47,578            41,324
         Increase in Contingent Liability                                            2,826                ­
         Increase in Other Unfunded Employment Related Liabilities                       96               70
           Total Other                                                              56,059            48,001
           Total Components of Net Cost of Operations That Will Require or
            Generate Resources in Future Periods                                $ 55,997          $ 53,396




                                                - 86 -
Required Supplementary Information 

             Unaudited 





             - 87 -
This page intentionally left blank.





               - 88 -
                                                                  U.S. Department of Justice

                                                               Drug Enforcement Administration

                                                             Required Supplementary Information

                                                         Combining Statement of Budgetary Resources

                                                        For The Fiscal Year Ended September 30, 2011

Dollars in Thousands
                                                                                  S&E           Violent Crime       Diversion       Construction       Total
Budgetary Resources


 Unobligated Balance, Brought Forward, October 1                             $       154,944    $        251    $       68,090      $       106    $    223,391

 Recoveries of Prior Year Unpaid Obliga ions                                          88,123                -           13,930                 -        102,053

 Budget Authority
   Appropriations Received                                                         2,019,683                -          242,673                 -       2,262,356
   Spending Authority from Offsetting Collections
       Earned
           Collected                                                                 529,404                -              534                 -        529,938
           Change in Receivables from Federal Sources                                  4,563                -                -                 -          4,563
       Change in Unfilled Customer Orders
           Advance Received                                                              (28)               -                -                 -             (28)
           Without Advance from Federal Sources                                      (29,182)               -                -                 -         (29,182)
 Subtotal Budget Authority                                                         2,524,440                -          243,207                 -       2,767,647

 Nonexpenditure Transfers, Net, Actual                                                71,029                -                   -              -         71,029
 Permanen ly not Available                                                            (4,039)               -                   -              -         (4,039)

Total Budgetary Resources                                                    $     2,834,497    $        251    $      325,227      $       106    $   3,160,081


Status of Budgetary Resources
 Obligations Incurred
   Direct                                                                    $     2,208,919    $        251    $      283,501      $       106    $   2,492,777
   Reimbursable                                                                      509,012               -                 -                -          509,012
       Total Obligations Incurred                                                  2,717,931             251           283,501              106        3,001,789
 Unobligated Balance - Available
   Apportioned                                                                        79,056               -            39,447                -          118,503
          Total Unobligated Balance - Available                                       79,056               -            39,447                -          118,503
 Unobligated Balance not Available                                                    37,510               -             2,279                -           39,789
Total Status of Budgetary Resources                                          $     2,834,497    $        251    $      325,227      $       106    $   3,160,081


Change in Obligated Balance
 Obligated Balance, Net - Brought Forward, October 1
   Unpaid Obligations                                                        $       713,986    $       5,267   $       55,666      $      2,124   $     777,043
   Less: Uncollected Customer Payments from Federal Sources                          181,976                -                -                 -         181,976
         Total Unpaid Obligated Balance, Net - Brought Forward, October 1            532,010            5,267           55,666             2,124         595,067
 Obligations Incurred, Net                                                         2,717,931              251          283,501               106       3,001,789
 Less: Gross Outlays                                                               2,695,393            4,926          262,399             2,031       2,964,749
 Less: Recoveries of Prior Year Unpaid Obliga ions, Actual                            88,123                -           13,930                 -         102,053
 Change in Uncollected Customer Payments from Federal Sources                         24,619                -                -                 -          24,619

 Obligated Balance, Net - End of Period
  Unpaid Obligations                                                                 648,402             591            62,838              199         712,030
  Less: Uncollected Customer Payments from Federal Sources                           157,357               -                 -                -         157,357
      Total Unpaid Obligated Balance, Net - End of Period                    $       491,045    $        591    $       62,838      $       199    $    554,673


Net Outlays
 Gross Outlays                                                               $     2,695,393    $       4,926   $      262,399      $      2,031   $   2,964,749
 Less: Offsetting Collections                                                        529,376                -              534                 -         529,910
 Less: Distributed Offsetting Receipts                                                   942                -          242,674                 -         243,616

Total Net Outlays                                                            $     2,165,075    $       4,926   $       19,191      $      2,031   $   2,191,223




                                                                            - 89 -
                                                                  U.S. Department of Justice

                                                               Drug Enforcement Administration

                                                             Required Supplementary Information

                                                         Combining Statement of Budgetary Resources

                                                        For The Fiscal Year Ended September 30, 2010

Dollars in Thousands
                                                                                  S&E           Violent Crime       Diversion       Construction       Total
Budgetary Resources


 Unobligated Balance, Brought Forward, October 1                            $        235,861    $        204    $       87,806      $         8    $    323,879

 Recoveries of Prior Year Unpaid Obligations                                         111,847              45            17,235                 -        129,127

 Budget Authority
   Appropriations Received                                                         2,053,353                -          230,836                 -       2,284,189
   Spending Authority from Offsetting Collections
       Earned
           Collected                                                                 537,465               2               209              126         537,802
           Change in Receivables from Federal Sources                                (33,532)              -                 -                -         (33,532)
       Change in Unfilled Customer Orders
           Advance Received                                                               25               -                 -                -               25
           Without Advance from Federal Sources                                       (5,407)              -                 -                -           (5,407)
 Subtotal Budget Authority                                                         2,551,904               2           231,045              126        2,783,077

 Nonexpenditure Transfers, Net, Actual                                                39,756                -                   -              -         39,756

Total Budgetary Resources                                                   $      2,939,368    $        251    $      336,086      $       134    $   3,275,839


Status of Budgetary Resources
 Obligations Incurred
   Direct                                                                   $      2,264,650    $           -   $      267,996      $        28    $   2,532,674
   Reimbursable                                                                      519,774                -                -                -          519,774
       Total Obligations Incurred                                                  2,784,424                -          267,996               28        3,052,448
 Unobligated Balance - Available
   Apportioned                                                                       126,561             251            68,090              106          195,008
          Total Unobligated Balance - Available                                      126,561             251            68,090              106          195,008
 Unobligated Balance not Available                                                    28,383               -                 -                -           28,383
Total Status of Budgetary Resources                                         $      2,939,368    $        251    $      336,086      $       134    $   3,275,839


Change in Obligated Balance
 Obligated Balance, Net - Brought Forward, October 1
   Unpaid Obliga ions                                                       $        623,944    $       5,548   $       55,294      $      2,460   $     687,246
   Less: Uncollected Customer Payments from Federal Sources                          220,915                -                -                 -         220,915
         Total Unpaid Obligated Balance, Net - Brought Forward, October 1            403,029            5,548           55,294             2,460         466,331
 Obligations Incurred, Net                                                         2,784,423                -          267,997                28       3,052,448
 Less: Gross Outlays                                                               2,582,533              237          250,390               364       2,833,524
 Less: Recoveries of Prior Year Unpaid Obligations, Actual                           111,847               45           17,235                 -         129,127
 Change in Uncollected Customer Payments from Federal Sources                         38,939                -                -                 -          38,939

 Obligated Balance, Net - End of Period
  Unpaid Obliga ions                                                                 713,986            5,267           55,666             2,124        777,043
  Less: Uncollected Customer Payments from Federal Sources                           181,976                -                -                 -        181,976
      Total Unpaid Obligated Balance, Net - End of Period                   $        532,010    $       5,267   $       55,666      $      2,124   $    595,067


Net Outlays
 Gross Outlays                                                              $      2,582,533    $        237    $      250,390      $       364    $   2,833,524
 Less: Offsetting Collections                                                        537,490               2               209              126          537,827
 Less: Distributed Offsetting Receipts                                                 1,131               -           230,836                -          231,967

Total Net Outlays                                                           $      2,043,912    $        235    $       19,345      $       238    $   2,063,730




                                                                            - 90 -
